<html>
<title> - HELPING STUDENTS SUCCEED BY STRENGTHENING THE CARL D. PERKINS CAREER AND TECHNICAL EDUCATION ACT</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]









                      HELPING STUDENTS SUCCEED BY
                           STRENGTHENING THE
                       CARL D. PERKINS CAREER AND
                        TECHNICAL EDUCATION ACT

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 17, 2016

                               __________

                           Serial No. 114-48

                               __________

  Printed for the use of the Committee on Education and the Workforce


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





      Available via the World Wide Web: www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-060 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                     
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California              Ranking Member
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Matt Salmon, Arizona                 Joe Courtney, Connecticut
Brett Guthrie, Kentucky              Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Lou Barletta, Pennsylvania           Gregorio Kilili Camacho Sablan,
Joseph J. Heck, Nevada                 Northern Mariana Islands
Luke Messer, Indiana                 Frederica S. Wilson, Florida
Bradley Byrne, Alabama               Suzanne Bonamici, Oregon
David Brat, Virginia                 Mark Pocan, Wisconsin
Buddy Carter, Georgia                Mark Takano, California
Michael D. Bishop, Michigan          Hakeem S. Jeffries, New York
Glenn Grothman, Wisconsin            Katherine M. Clark, Massachusetts
Steve Russell, Oklahoma              Alma S. Adams, North Carolina
Carlos Curbelo, Florida              Mark DeSaulnier, California
Elise Stefanik, New York
Rick Allen, Georgia

                    Juliane Sullivan, Staff Director
                 Denise Forte, Minority Staff Director
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                 
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 17, 2016.....................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
    Scott, Hon. Robert C. ``Bobby'', Ranking Member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Kaine, Hon. Tim, a Representative in Congress from the State 
      of Virginia................................................     8
        Prepared statement of....................................    11
    Tse, Mr. Paul, Project Manager, Shapiro and Duncan, Inc......    14
        Prepared statement of....................................    17
    Bates, Mr. Jason, Manager, Toyota-Bodine Aluminum, Inc.......    21
        Prepared statement of....................................    23
    Sullivan, Dr. Monty, President, Louisiana Community and 
      Technical College System...................................    31
        Prepared statement of....................................    33

Additional Submissions:
    Fudge, Hon. Marcia L., a Representative in Congress from the 
      State of Ohio:
        Letter dated May 3, 2016, from Partnership for 21st 
          Century Learning P21...................................    72
        Letter dated May 16, 2016, from the National Education 
          Association (NEA)......................................    67
    Thompson, Hon. Glenn, a Representative in Congress from the 
      State of Pennsylvania:
        Letter dated May 16, 2016, from Opportunity America......    69
        Recommendations Perkins Career and Technical Education 
          Act....................................................    70
        Prepared statement of....................................    75
    Chairman Kline on behalf of Congressman Will Hurd, questions 
      submitted for the record to:
        Mr. Bates................................................    78
        Dr. Sullivan.............................................    84
    Bishop, Hon. Michael D., a Representative in Congress from 
      the state of Michigan, questions submitted to Dr. Sullivan.    84
    Stefanik, Hon. Elise, a Representative in Congress from the 
      state of New York, questions submitted to:
        Mr. Bates................................................    78
        Mr. Tse..................................................    89
    Response to questions submitted:
        Mr. Bates................................................    81
        Dr. Sullivan.............................................    86
        Mr. Tse..................................................    91

 
                      HELPING STUDENTS SUCCEED BY
                   STRENGTHENING THE CARL D. PERKINS
                   CAREER AND TECHNICAL EDUCATION ACT

                              ----------                              


                         Tuesday, May 17, 2016

                        House of Representatives

                Committee on Education and the Workforce

                            Washington, D.C.

                              ----------                              

    The Committee met, pursuant to call, at 10:00 a.m., in Room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Wilson, Foxx, Roe, Walberg, 
Salmon, Guthrie, Rokita, Heck, Messer, Byrne, Brat, Carter, 
Bishop, Grothman, Curbelo, Stefanik, Allen, Scott, Davis, 
Courtney, Fudge, Polis, Bonamici, Pocan, Takano, Clark, Adams, 
and DeSaulnier.
    Also Present: Representative Langevin.
    Staff Present: Janelle Belland, Coalitions and Members 
Services Coordinator; Tyler Hernandez, Deputy Communications 
Director; Amy Raaf Jones, Director of Education and Human 
Resources Policy; Nancy Locke, Chief Clerk; Dominique McKay, 
Deputy Press Secretary; Krisann Pearce, General Counsel; Clint 
Raine, TFA Fellow; James Redstone, Professional Staff Member; 
Alex Ricci, Legislative Assistant; Alissa Strawcutter, Deputy 
Clerk; Brad Thomas, Senior Education Policy Advisor; Tylease 
Alli, Minority Clerk/Intern and Fellow Coordinator; Jacque 
Chevalier, Minority Senior Education Policy Advisor; Mishawn 
Freeman, Minority Staff Assistant; Denise Forte, Minority Staff 
Director; Brian Kennedy, Minority General Counsel; Rayna Reid, 
Minority Education Policy Counsel; Phillip Tizzani, Eduction 
Detailee; and Katherine Valle, Minority Education Policy 
Advisor.
    Chairman Kline. A quorum being present, the Committee on 
Education and the Workforce will come to order.
    Good morning. I would like to extend a warm welcome to our 
witnesses. We appreciate you joining us today, all of you, to 
discuss ways to strengthen career and technical education.
    It is an important conversation to have because of the 
critical role career and technical education programs play in a 
student's education, and more importantly, in their future.
    Through the Carl D. Perkins Career and Technical Education 
Act, the Federal Government supports State and local programs 
designed to prepare high school and community college students 
for technical careers. These programs offer students the 
knowledge and training they need to compete in the workforce 
and hold jobs in a wide range of fields. In other words, they 
offer opportunities for young men and women to pursue a 
lifetime of success.
    This is an important conversation to have now because an 
anemic economy has made good paying jobs hard to come by. In 
fact, today, millions of Americans are struggling to find 
employment and millions of others who need full-time jobs can 
only find part-time work. For young people entering this kind 
of job market, having the right skills and experience is 
essential.
    Career and technical education programs can provide these 
critical tools, and we have to ensure Federal support for these 
programs is delivered in the most efficient and effective 
manner possible. As we have learned in recent years, through 
hearings and other activities, there are certainly 
opportunities to improve the law.
    This is an important area where Republicans and Democrats 
should work together to deliver reforms that will strengthen 
support for all Americans, but particularly young Americans.
    That collaboration is exactly what happened in 2014 with 
the bipartisan Workforce Innovation and Opportunity Act. We 
worked together to help put Americans back to work by improving 
an outdated and insufficient job training program.
    Last year, a similar commitment to finding common ground 
guided our efforts to improve K-12 education. The result was 
the Every Student Succeeds Act, a law that empowers parents, 
teachers, and State and local leaders to deliver the quality 
education every child deserves.
    It's time we applied the same approach to strengthening 
career and technical education, but more importantly, we need 
to apply many of the same principles reflected in our efforts 
to improve K-12 education and workforce development. What does 
that mean in practical terms?
    It means empowering State and local leaders to innovate and 
respond to the unique economic and education needs in their 
communities. They know better than anyone, certainly better 
than any of us in Washington, what it takes to meet the needs 
of their students, workers, and employers. It means equipping 
students with the skills they need for today's in demand jobs, 
not the skills that were needed in yesterday's workforce.
    We have to make sure Federal resources are aligned with the 
needs of the local workforce, the demands of new and emerging 
businesses. It also means strengthening transparency and 
accountability, providing parents, students, business leaders, 
community stakeholders, and taxpayers the information they need 
to hold their programs accountable.
    It isn't good enough for students to simply complete a 
program. Once they have done so, they should be ready to 
further their education or pursue a good paying job.
    Finally, it means ensuring a limited Federal role. 
Restricting the Federal Government's ability to intervene in 
matters that should be left up to the States will enable State 
and local leaders to spend less time meeting the demands of 
Washington and more time meeting the needs of people and their 
local communities.
    These are the kinds of reforms that we know work, the kinds 
of reforms that will help students succeed in the classroom and 
in the future. For many individuals entering the workforce can 
be scary enough on its own, for the young men and women 
entering today's workforce, a slew of technological advantages, 
global changes, and economic challenges make finding a good job 
even more daunting.
    That is why it is so important for us to continue working 
together to ensure students have what they need to achieve 
success. Strengthening career and technical education should be 
the next step in that important effort.
    I look forward to hearing from our witnesses as we continue 
our work to strengthen the Perkins Act, and with that, I 
recognize Ranking Member Bobby Scott for his opening remarks.
    [The information follows:]

            Prepared Statement of Hon. John Kline, Chairman 
                Committee on Education and the Workforce

    Through the Carl D. Perkins Career and Technical Education Act, the 
federal government supports state and local programs designed to 
prepare high school and community college students for technical 
careers. These programs offer students the knowledge and training they 
need to compete in the workforce and hold jobs in a wide range of 
fields. In other words, they offer opportunities for young men and 
women to pursue a lifetime of success.
    This is an important conversation to have now because an anemic 
economy has made good-paying jobs hard to come by. In fact, today, 
millions of Americans are struggling to find employment, and millions 
of others who need full-time jobs can only find part-time work. For 
young people entering this kind of job market, having the right skills 
and experience is essential.
    Career and technical education programs can provide these critical 
tools, and we have to ensure federal support for these programs is 
delivered in the most efficient and effective manner possible. As we 
have learned in recent years--through hearings and other activities--
there are certainly opportunities to improve the law. This is an 
important area where Republicans and Democrats should work together to 
deliver reforms that will strengthen support for all Americans, but 
particularly young Americans.
    That collaboration is exactly what happened in 2014 with the 
bipartisan Workforce Innovation and Opportunity Act. We worked together 
to help put Americans back to work by improving an outdated and 
inefficient job training system. Last year, a similar commitment to 
finding common ground guided our efforts to improve K-12 education. The 
result was the Every Student Succeeds Act, a law that empowers parents, 
teachers, and state and local leaders to deliver the quality education 
every child deserves.
    It's time we applied the same approach to strengthening career and 
technical education. But more importantly, we need to apply many of the 
same principles reflected in our efforts to improve K-12 education and 
workforce development. What does that mean in practical terms?
    It means empowering state and local leaders to innovate and respond 
to the unique economic and education needs in their communities. They 
know better than anyone--certainly better than any of us in 
Washington--what it takes to meet the needs of their students, workers, 
and employers.
    It means equipping students with the skills they need for today's 
in-demand jobs--not the skills that were needed in yesterday's 
workforce. We have to make sure federal resources are aligned with the 
needs of the local workforce and the demands of new and emerging 
businesses.
    It also means strengthening transparency and accountability, 
providing parents, students, business leaders, community stakeholders, 
and taxpayers the information they need to hold their programs 
accountable. It isn't good enough for students to simply complete a 
program; once they've done so, they should be ready to further their 
education or pursue a good-paying job.
    Finally, it means ensuring a limited federal role. Restricting the 
federal government's ability to intervene in matters that should be 
left up to the states will enable state and local leaders to spend less 
time meeting the demands of Washington and more time meeting the needs 
of people in their local communities.
    These are the kinds of reforms that we know work; the kinds of 
reforms that will help students succeed in the classroom and in the 
future. For many individuals, entering the workforce can be scary 
enough on its own. For the young men and women entering today's 
workforce, a slew of technological advances, global changes, and 
economic challenges make finding a good job even more daunting.
    That's why it's so important for us to continue working together to 
ensure students have what they need to achieve success. Strengthening 
career and technical education should be the next step in that 
important effort.
                                 ______
                                 
    Mr. Scott. Good morning, and thank you, Chairman Kline. We 
are here today to discuss the critical role of career and 
technical education, or CTE, in preparing our Nation's students 
for success in the 21st century workforce.
    The Federal investment in CTE is authorized under the Carl 
D. Perkins Career and Technical Education Improvement Act of 
2006, and I am hopeful that today's hearing will serve as a 
foundation for a bipartisan comprehensive reauthorization of 
this important law.
    The research is clear. The United States is suffering from 
a skills gap due to our failure to produce enough skilled 
workers to meet future economic needs. According to the 
Georgetown University Center on Education and the Workforce, by 
2020, 65 percent of all jobs in the United States will require 
some sort of postsecondary education or training. Yet, at its 
current production rate, the United States will fall 
approximately 5 million workers short of this by 2020.
    Investing in high quality CTE and increasing access to 
these programs through the reauthorization of the Perkins CTE 
must be prioritized as a partial solution to bridge this gap.
    CTE provides students with knowledge and skills needed to 
be both career and college ready. This is not the vocational 
education of the past. Today's CTE fosters educational 
environments and engages students with an integrated curriculum 
of core academic content and real world work-based relevance.
    I am proud to say that my home State of Virginia is a 
leader in CTE with more than half a million 6th through 12th 
graders participating in CTE across the Commonwealth. Virginia 
has expanded access to CTE programs that equip secondary school 
students with recognized postsecondary credentials through 
innovative programs such as dual enrollment and registered 
apprenticeships.
    As we move forward with reauthorization, we must prioritize 
robust investment in high quality CTE programs in each and 
every State in order to maintain our Nation's status as a 
leader in the global economy.
    The globalization of the marketplace has altered the way 
the U.S. and other countries compete for business. We certainly 
cannot compete with other countries when it comes to lowest 
wages, when many around the world may work for a couple of 
dollars or even pennies a day. Nor can we compete in terms of 
location with today's technology, video conferencing, 
Smartphones and tablets, any worker that can work across the 
hall from their co-workers can work across the globe from their 
co-workers.
    The main reason the United States remains strong and 
continues to attract businesses is because we have a well 
educated and well trained workforce. Our focus on equitable 
access and high standards for all students, a system that 
focuses on college and career ready results, is an economic 
asset.
    While many of today's CTE programs are successfully 
providing students with the skills and knowledge that today's 
employers demand, there is more to be done to ensure that each 
and every CTE program is delivering the results for students, 
for industry, and for our national economy.
    We must do more to spur innovation in the delivery of CTE. 
We need to reward and replicate programs achieving positive 
results for students and industry to ensure that CTE is 
positioned to drive economic success, enhance workforce 
alignment, and increase collaboration between secondary and 
postsecondary educational institutions, industry, employers, 
and community partners.
    While successful CTE programs must meet labor market 
demands, they must also work for students. They must prepare 
them to succeed in demand jobs that offer living wages, 
employer benefits, and opportunities for meaningful career 
advancement. This requires renewed focus to ensure the 
opportunity for all students, especially historically 
disadvantaged students, to benefit from CTE programs that are 
relevant, rigorous, and high quality.
    In recent years, this committee, along with our Senate 
colleagues, completed successful, bipartisan reauthorization of 
two major laws which we must align with Perkins CTE. I am 
confident that the bipartisanship and shared commitment to 
equity in education embodied in both the Workforce Innovation 
and Opportunity Act and the Every Student Succeeds Act will 
produce a bipartisan reauthorization of Perkins CTE that 
empowers States and school districts and will make quality CTE 
available to all students with the guidance and support of the 
Department of Education.
    It is our obligation to prioritize equity of opportunity 
when it comes to participating in and benefiting from quality 
CTE programs. We must preserve and improve program 
accountability.
    The Federal Government has an important role to play in 
setting high expectations both for the systems and for the 
students those systems serve. In addition, we must maintain 
vigorous oversight and enforcement to ensure those expectations 
matter.
    Mr. Chairman, I would like to thank you for holding this 
hearing. I would like to thank all of our witnesses for coming 
to testify today, and eagerly await their testimony, as you are 
all uniquely positioned to provide insight into the challenges, 
successes, and future of career and technical education.
    Lastly, I look forward to working with you, Mr. Chairman, 
and the committee on a bipartisan effort to modernize Federal 
support for CTE through the reauthorization of the Carl D. 
Perkins Career and Technical Education Act of 2006.
    Thank you, Mr. Chairman.
    [The information follows:]

 Prepared Statement of Hon. Robert C. ``Bobby'' Scott, Ranking Member, 
                Committee on Education and the Workforce

    Good morning and thank you, Chairman Kline. We are here today to 
discuss the critical role of career and technical education, or C.T.E., 
in preparing our nation's students for success in the 21st century 
workforce. Federal investment in CTE programs is authorized under the 
Carl D. Perkins Career and Technical Education Improvement Act of 2006, 
and I am hopeful that today's hearing will serve as a foundation for a 
bipartisan comprehensive reauthorization of this important law.
    The research is clear: The United States is suffering from a 
``skills gap'' due to our failure to produce enough skilled workers to 
meet future economic needs. According to the Georgetown University 
Center on Education and the Workforce, by 2020, 65 percent of all jobs 
in the United States will require some sort of postsecondary education 
or training. Yet, at the current production rate, the United States 
will fall short by 5 million workers with postsecondary education by 
2020.
    Investing in high-quality CTE and increasing access to these 
programs - through the reauthorization of Perkins CTE - must be a 
prioritized as a solution to bridge that gap.
    CTE provides students with the knowledge and skills needed to be 
both college and career ready. This is not the vocational education of 
the past--today's CTE fosters educational environments that engage 
students with an integrated curriculum of core academic content and 
real-world, work-based relevance. And, I'm proud to say that my home 
state of Virginia is a leader in CTE, with more than half a million 
sixth through twelfth grade students participating in CTE across the 
Commonwealth. Virginia has expanded access to CTE programs that equip 
secondary school students with recognized postsecondary credentials 
through innovative programs such as dual enrollment and registered 
apprenticeships.
    As we move forward with reauthorization, we must also prioritize 
robust investment in high-quality CTE programs in each and every state 
in order to maintain our nation's status as a leader in the global 
economy.
    The globalization of the marketplace has altered the way the U.S. 
and other countries compete for business. We certainly can't compete 
with other countries when it comes to the lowest wages, when many 
around the world may work for a few dollars or even a few pennies a 
day. Nor can we compete in terms of location. With today's technology - 
video-conferencing, smartphones, tablets - workers can now work across 
the globe from their coworkers.
    But the main reason that America remains strong and continues to 
attract business investment is because we have well-educated workers. 
Our focus on equitable access and high standards for all students - a 
system that focuses on college- and career-ready results - is an 
economic asset. And while many of today's CTE programs are successfully 
providing students with the skills and knowledge that today's employers 
demand, there's more to be done to ensure that each and every CTE 
program is delivering results for students, for industry, and for our 
national economy.
    We must also do more to spur innovation in the delivery of CTE. We 
need to reward and replicate programs achieving positive outcomes for 
students and industry to ensure that CTE is positioned to drive 
economic success, enhance workforce alignment and increase 
collaboration between education, industry, employers, and community 
partners.
    While successful CTE programs must meet labor-market needs, they 
must also work for students. They must prepare them to succeed in in-
demand jobs that offer living wages, employer benefits, and 
opportunities for meaningful career advancement. This requires a 
renewed federal focus to ensure the opportunity for all students - 
especially historically disadvantaged students - to benefit from CTE 
programs that are relevant, rigorous, and high-quality.
    In recent years, this committee, along with our Senate colleagues, 
completed successful, bipartisan comprehensive reauthorizations of two 
major laws with which we must align Perkins CTE. I am confident that 
the bipartisanship and shared commitment to equity in education 
embodied in both the Workforce Innovation and Opportunity Act and the 
Every Student Succeeds Act will produce a bipartisan reauthorization of 
Perkins CTE that empowers states and school districts to make quality 
CTE available to all students with the guidance and support of the U.S. 
Department of Education.
    It is our obligation to prioritize equity of opportunity when it 
comes to participating in and benefiting from quality CTE programs. We 
must preserve and improve program accountability-- the federal 
government has an important role to play in setting high expectations 
both for systems and for the students those systems serve. In addition, 
we must maintain vigorous oversight and enforcement to ensure those 
expectations matter.
    So, Mr. Chairman, I'd like to thank you again for holding this 
hearing. I would also like to thank our witnesses for coming here to 
testify. I eagerly await your testimony, as you all are uniquely 
positioned to provide insight into the challenges, successes, and 
future of career and technical education. And lastly, I look forward to 
continuing to work with Chairman Kline on a bipartisan effort to 
modernize federal support for CTE through reauthorization of the Carl 
D. Perkins Career and Technical Education Act of 2006.
                                 ______
                                 
    Chairman Kline. I thank the gentleman. Pursuant to 
Committee Rule 7(c), all members will be permitted to submit 
written statements to be included in the permanent hearing 
record. Without objection, the hearing record will remain open 
for 14 days to allow such statements and other extraneous 
material referenced during the hearing to be submitted for the 
official hearing record.
    We are now going to turn to the introductions of our 
distinguished witnesses. Mr. Scott, I understand you will 
introduce our first witness.
    Mr. Scott. Thank you, Mr. Chairman. I am pleased to 
introduce Senator Tim Kaine of Virginia, a good friend and 
inspirational leader from the Commonwealth of Virginia. He is a 
longtime advocate for education, and his life's journey is a 
tribute to the power of career and technical education 
programs.
    Now he is the founder and co-chair of the bipartisan CTE 
Caucus in the Senate. He focuses on improving access to CTE 
programs to ensure that students of all ages are prepared with 
skills necessary for the 21st century workforce.
    His commitment to public education runs in his family. His 
wife, Ann, is also a personal friend, and she serves as the 
Commonwealth's Secretary of Education. His father-in-law, 
former Governor Linwood Holton, is also a strong advocate of 
equal educational opportunities.
    I want to thank Senator Kaine for his leadership in the 
Senate to ensure that last year's bipartisan Every Student 
Succeeds Act included provisions to strengthen school career 
counseling programs and encourage alignment between general 
career and technical education programs, and to better serve 
students.
    He also was involved in the reauthorization as he 
championed provisions to empower local school districts to 
deliver instruction in interpersonal and relationship skills, 
key foundation, employability skills or soft skills, that are 
often too lacking in high school graduates.
    He grew up working in his iron working shop in Kansas City, 
educated at University of Missouri and Harvard Law School, 
started his public service career by taking a year off from 
Harvard to run a technical school founded by Jesuit 
missionaries in Honduras.
    I am sure we will hear more from the Senator during his 
testimony about how these and other real world experiences 
shaped his future.
    And so, Senator Kaine, I have known for many years, as I 
have indicated. About the same time I was getting elected to 
Congress, he was getting elected to City Council in Richmond, 
then Mayor of Richmond, then Lieutenant Governor, then 
Governor, and now Senator from Virginia, and I don't think we 
have heard the last of him.
    Thank you, Mr. Chairman.
    Chairman Kline. I thank the gentleman. Senator, thank you 
for being here. Although I do know you are sliding down in the 
elective political scale here, but thank you for being here 
with us today. I understand you need to leave before 11:00. We 
will be mindful of that as we go forward.
    It is now my pleasure to introduce our remaining witnesses. 
Mr. Paul Tse is a project manager with Shapiro & Duncan, Inc. 
in Rockville, Maryland. Mr. Tse attended the Thomas Edison High 
School of Technology in Montgomery, Maryland. His experience at 
Thomas Edison helped prepare him for an HVAC job with Shapiro & 
Duncan. In his 12 years with the company, Mr. Tse has gone on 
to become a project manager and was part of the leadership team 
that recently oversaw a $16 million HVAC installation.
    Mr. Jason Bates is an administration manager with Toyota-
Bodine Aluminum in Jackson, Tennessee. Mr. Bates is the 
administration manager for the Toyota's Bodine Aluminum, which 
supplies aluminum diecast engine parts for the company's North 
American power train production.
    He oversees the implementation of Toyota's advanced 
manufacturing technician program in Tennessee. The MT program 
provides students the opportunity to earn a work related 
associate's degree while working part-time.
    Dr. Monty Sullivan is president of the Louisiana Community 
and Technical College System in Baton Rouge, Louisiana. Dr. 
Sullivan has been president of the Louisiana Community and 
Technical College System since February 2014. Prior to serving 
as president, he was the chancellor of Delgado Community 
College in New Orleans.
    He has been a leader in Louisiana's effort to address 
workforce needs through the targeted application of the Perkins 
Act and State workforce development funding.
    Welcome, all of you. Before I recognize each of you to 
provide your testimony, let me just go over our highly 
complicated lighting system. We allow 5 minutes for each 
witness to provide testimony. When you begin, the light in 
front of you will turn green. When 1 minute is left, the light 
will turn yellow, and at the 5 minute mark, the light will turn 
red, and then please try to wrap up your testimony.
    I am loath to gavel down witnesses, certainly during their 
opening testimony, but you can see we have a number of members 
that we want to get through. These members will each have 5 
minutes to ask questions, and I hope I can hold with that. That 
means I will not be hesitant to gavel down that 5 minute time.
    So, let's get started. Senator Kaine, you are recognized.

  STATEMENT OF HON. TIM KAINE, UNITED STATES SENATOR FROM THE 
                       STATE OF VIRGINIA

    Senator Kaine. Thank you, Mr. Chair, and Ranking Member 
Scott, and committee members. I am so pleased that you are 
holding this hearing and honored that you asked me to testify.
    Congratulations also on WIOA and ESSA. These are two big 
accomplishments, and we hope that we can work together 
obviously to reauthorize Perkins.
    Congressman Scott described my own personal background in 
this area. My dad ran an organized iron working and welding 
shop in the stockyards of Kansas City, Missouri. My two 
brothers and I and my mom grew up all working in that business. 
In a tough year, there would be five employees, and in a great 
year, there would be seven or eight employees. It was a classic 
small business.
    But I learned from my father. As the owner, he would always 
teach us that his business acumen would help his great welders 
and iron workers educate their kids, but their technical 
mastery would help him educate his kids. It was a partnership. 
And That's what is so good about this topic. It truly is a 
partnership.
    Years later, when I was at Harvard Law School and not sure 
what I wanted to do with my life, I volunteered to go work with 
Jesuit missionaries in Honduras. They saw that I was at Harvard 
Law School and determined that would have no relevance to 
anything they were doing.
    But when they realized I had worked in an iron working 
shop, they said run a vocational school, Instituto Tecnico 
Loyola in El Progreso, 1980 and 81. It was a school that taught 
kids to be welders and carpenters.
    These early experiences taught me the power of career and 
technical education, but then back here as I was going through 
schooling and even watching my own kids go through schooling, I 
saw a contrast. The schools I went to in Kansas City did not 
emphasize career and technical education. In fact, the 
vocational education track was kind of sometimes used for kids 
that had been probably wrongly determined not to be college 
material.
    I saw this in my own children's education as they were 
going through the public schools in Richmond. There was maybe a 
little better attitude but still not an embrace of it.
    I remember when I was running for Lieutenant Governor, a 
good friend, G.G. Pippin, who is a middle school educator in 
Wise County, Virginia, said to me ``I will sometimes see my 
kids after they are in middle school and high school, and I'll 
ask them what they are doing, and sometimes my kids say I am in 
vocational education and slump their shoulders almost as if 
they are ashamed to tell me that is what they are doing.''
    Clearly, CTE is important, but clearly for a variety of 
reasons, we have not emphasized its importance.
    When I was Governor of Virginia, I worked hard with 
Democrats and Republicans to change that trajectory. We 
dramatically increased the number of our young people who are 
getting industry certifications, and as much as I would like to 
say it was because there was a good Governor, frankly, there 
was a renaissance going on in every one of our 134 city and 
county school systems. People were starting to embrace again 
the notion of technical education.
    We started when I was Governor, Governor's Career and 
Technical Academies. We had Governor's schools, 17 regional 
magnet Governor's schools that would prepare kids for college. 
And when I ran for Governor, I said why not call it a career 
and technical education program, a Governor's school, just the 
label, just to shine the spotlight.
    By the time I was done as Governor, there were nine. The 
Governor who followed me, Governor McDonnell, took it up to 23. 
The Governor who's followed him, Terry McAuliffe, is adding to 
it again. There is a renaissance, and people around the State 
get it.
    In the Senate, I came to the Senate and I wanted to be on 
the HELP Committee, and I did not get put on. What I realized 
is you do not have to be on the committee, just pick an issue 
that nobody on the committee is yet championing. And so I chose 
CTE education. I did what any smart Senator would do, I stole 
an idea from the House.
    You had a CTE Caucus for a very long time and the Senate 
hasn't. With Rob Portman of Ohio and Tammy Baldwin of 
Wisconsin, we have created a caucus, and we have had meaningful 
legislation passed both as part of WIOA and ESSA included in 
those bills.
    And now, Perkins is our priority, and the committee in the 
Senate is working hard on this as well.
    We have three bills that are sort of pending on the Senate 
side. Conceptually, I'd just like to describe them, because I 
think they would be really helpful as we look at Perkins' 
reauthorization.
    First, the Educating Tomorrow's Workforce Act. I describe 
it in the written testimony. It is basically trying to define 
for Circa 2016 what is a high quality CTE program. The 
interaction with the private sector and employers is important. 
Connection with colleges and community colleges is important. 
Professional development is important.
    What is important about CTE education if it is going to be 
truly first class? That is what the Educating Tomorrow's 
Workforce Act does.
    Second, the Middle STEP Act. I kind of viewed in my own 
experience with my own kids that middle school is often kind of 
a little bit of a pedagogical wasteland. It is kind of hormone 
warehouse. If we are going to expect high schoolers to start 
making career choices, including CTE paths, let's use middle 
school to expose kids as broadly as possible to what the 
workforce is. Most children, they know what their parents do 
and they know what teachers do, but they do not really know 
what's out there. Let's do that in middle school.
    Finally, as I conclude, the CTE Excellence and Equity Act, 
which is also a pilot project, designed specifically to enhance 
CTE education in schools where there are a lot of underserved 
students, because it is a path to success.
    I will just conclude and say this is a win-win. Employers 
and labor want us to do this. Governors and Mayors want us to 
do this. CTE educators who often labored in the shadows but now 
are seeing a renaissance, they want us to do it, and most of 
all, our kids will win if we do.
    Thanks so much for having me.
    [The statement of Senator Kaine follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    Chairman Kline. Thank you, Senator. Mr. Tse, you are 
recognized for 5 minutes.

 STATEMENT OF PAUL TSE, PROJECT MANAGER, SHAPIRO & DUNCAN, INC.

    Mr. Tse. Chairman Kline, Ranking Member Scott, and members 
of the Education and Workforce Committee, thank you for being 
able to testify in front of you today. Thank you for calling 
this important hearing on the benefits and the need to fund 
career and technical education programs.
    My name is Paul Tse. I am a proud graduate of a CTE program 
at Thomas Edison High School of Technology in Silver Spring.
    I come before you today as a staunch advocate for career 
development opportunities for students in construction and 
skilled trades. My journey from apprenticeship or apprentice to 
project manager began in Hong Kong in 1996. When I was 10 years 
old, my parents moved my family to America in search for a 
better life. We settled in Montgomery County, Maryland, and 
that is still where I live today.
    For the first few years of my life in America, my family 
bounced around rental properties and staying with relatives, 
simply because we just did not have the financial means to own 
a home.
    Although my parents worked relentlessly to provide for 
their kids, they were not immediately able to claim their piece 
of the American dream.
    While attending Rockville High School, I struggled as a 
student. I had attendance problems, mediocre/terrible grades. I 
fell into the wrong crowd and lacked any type of direction.
    As I started my junior year, I noted my classmates and 
friends making plans to go off to college. As I sat and watched 
from the sidelines, I can still remember the feeling of 
embarrassment and helplessness while those around me were 
beginning their climb towards success, and I sat still at the 
bottom.
    My life took a dramatic turn when one of my family members, 
who is a roofer, suggested that I look into the skilled trades 
as a career path. Like many of my peers, I had been pushed to 
attend a four year college as if anything else was seen as 
settling for failure.
    With the help of my guidance counselor, I found a local 
career and technical education program at Thomas Edison High 
School of Technology. Without any construction background, I 
decided nervously to enroll in the HVAC program my senior year. 
For those of you who do not know, ``HVAC'' stands for heating, 
ventilation, and air conditioning, which is what keeps us 
comfortable every single day.
    Spending my mornings in a typical classroom and my 
afternoons at Edison, I was introduced into the world of 
construction and the skilled trades following the industry's 
recognized and credentialed curriculum of National Center for 
Construction Education and Research, NCCER.
    Thanks to the dedicated staff and new found sense of 
direction, I graduated the program at the same time my peers 
were graduating their typical high schools. Within a week of 
graduation, I had two job offers from respected local companies 
to join their team as an apprentice. Even before my peers 
packed up their bags and got into their cars headed out for 
freshman move-in day, I accepted a position with Shapiro & 
Duncan Mechanical Contractors, and got right to work.
    In the summer, I logged valuable hours as a simple helper 
on a small construction project, and in the fall, I started my 
official apprenticeship program. For the next four years, I 
worked on projects during the day and attended classroom 
education in the evenings at Montgomery College, as part of the 
ACCA program, Air Conditioning Contractors of America.
    In the classroom, I was motivated and learned the basic 
theories of HVAC and also some complex math equations and 
calculations. My on-the-job training transferred what I had 
learned in the evenings into real world projects. At the end of 
my program, I was proud to be named the HVAC journeyman as 
recognized by the State of Maryland.
    I would like to note an important fact about the day I 
graduated, because I was fortunate enough to have my employer 
pay for the cost of my apprenticeship program, I was debt free. 
Not only was I debt free, I was also paid for the four year 
apprenticeship program, so I received my postsecondary 
education at no cost and earned four years of salary during 
that same time. I bet there are many folks in this room today, 
both younger and older, who are probably still paying off their 
student loans from undergrad or their grade school.
    I started my ascension into leadership positions during my 
time in the field. I ran small projects as a field foreman, 
leading small crews of two to four technicians on installation 
work, such as AC replacements at condominiums, schools, and 
small office buildings.
    After seven years of working in the field, I moved up the 
project letter and secured a position as an assistant project 
manager. After a year of that, my company deemed me a valuable 
enough asset and I was promoted to become a project manager.
    In the construction world, a project manager manages all 
aspects of a project, including budget, means and methods of 
installing work, schedule, and just overall constructability.
    As someone who has real world experience installing systems 
and welding pipes, I have an unique vantage point as a project 
manager. I did not only learn from a book on how to light a 
torch, I actually held it in my hand.
    Some of my colleagues graduated from four year colleges 
with degrees in construction management and mechanical 
engineering. While I am sure this benefitted them, my field 
experience and CTE training gave me a true competitive edge.
    I come before you today humbled and thankful that I had the 
opportunity to attend the CTE program at Edison. It is time 
that students, guidance counselors, educators, parents, 
American public, recognize the fulfilling and lucrative career 
that can be achieved in the construction and skilled trades.
    We must all work to remove any stigma that exists that in 
choosing a CTE program over a traditional four year college it 
is somehow settling.
    Those four years I spent at Montgomery College and out in 
the field, I worked just as hard as the students at colleges 
and universities. Instead of pushing kids down the traditional 
path of college prep, we should be pushing kids to explore 
learning opportunities that prepare them for college and a 
career.
    Whether the destination is an engineering degree from the 
University of Maryland or a journeyman's license from the State 
of Maryland, high schoolers should have the equal opportunities 
to prepare for either pathway.
    Chairman Kline, Ranking Member Scott, members of the 
committee, I am the American dream. I urge all of you to ensure 
that every child in America has the same opportunities as I 
did. Thank you.
    [The statement of Mr. Tse follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
    
    Chairman Kline. Thank you very much. Mr. Bates, you are 
recognized for 5 minutes.

STATEMENT OF JASON BATES, MANAGER, TOYOTA-BODINE ALUMINUM, INC.

    Mr. Bates. Good morning, Chairman Kline, Ranking Member 
Scott, and members of the committee. Thank you for this 
opportunity to testify on this important subject.
    My name is Jason Bates. I am manager of Administration at 
the Toyota-Bodine plant in Jackson, Tennessee. I started 
working for Toyota 10 years ago, and at the plant, my 
responsibilities include, among other things, training and 
development.
    Last January, I was appointed by Governor Bill Haslam to 
serve on the Tennessee Workforce Development Board.
    U.S. manufacturers are depending on Congress to enact 
education policies that are intentional in generating a robust 
world class workforce pipeline. By taking action before the end 
of the year, Congress can reinvigorate the foundation required 
to ensure America's long-term global manufacturing leadership.
    Like other advanced manufacturing companies in the United 
States, Toyota's employment needs are significant. We face 
formidable challenges arising from our country's skills gap. 
Toyota's response to the skills gap has been both vigorous and 
innovative.
    We have partnered with over 50 schools across the country 
to develop benchmark educational programs in two areas. First, 
we developed top service technicians for our Lexis and Toyota 
dealerships through a program called ``Toyota T-TEN.'' Second, 
we are educating skilled manufacturing technicians for our 
factories through an effort called the ``Advanced Manufacturing 
Technician'' or AMT program.
    Today, I will focus on our AMT program, which I was 
responsible for launching in Tennessee with Jackson State 
Community College. AMT is now a core component of Toyota's 
manufacturing success. It is designed to supply our U.S. 
factories with a cadre of skilled technicians who manage and 
maintain complex robotics and other manufacturing equipment.
    The program began in 2010 as a collaboration between Toyota 
and Kentucky's Bluegrass Community & Technical College. Since 
then, it has expanded into public/private partnerships in 8 
States, Alabama, Indiana, Kentucky, Mississippi, Missouri, 
Tennessee, Texas, and West Virginia.
    There are about 400 students enrolled, and that number is 
expected to significantly increase in the coming school year.
    At most of these locations, other companies, ranging from 
global manufacturers like 3M, GE, and Delta Faucet, to small 
manufacturers with fewer than 50 employees also participate. 
Altogether, there are more than 160 companies involved. This is 
important because private sector engagement is critical to 
solving the skills gap, and Perkins CTE reauthorization can 
help foster that outcome.
    Classes are conducted in an environment that is set up to 
look, feel, and function like the work environment. Students 
work and attend classes 40 hours a week for five straight 
semesters and earn enough money from their work to cover their 
tuition and expenses. Both their study and work experiences are 
organized around a structured sequence that teaches various 
technical and employment skills.
    The ultimate objective is a graduate who is multi-skilled, 
possesses strong math and reading capabilities, is a fast 
technical learner, is a problem solver, a good communicator, 
and is comfortable working as part of a team.
    This is the model for a globally competitive manufacturing 
technician we expect our educational partners to produce. 
Perkins CTE can encourage similar work-based learning 
opportunities which would foster similar high caliber 
graduates.
    Critical to AMT's success is identifying qualifying 
prospects. To ensure highly motivated students apply to the 
program, Toyota has increased its coordination with secondary 
and elementary schools. Part of our recruiting dynamic is 
having high school juniors, sophomores, and freshmen come and 
see our facilities year after year. We also interface with 
teachers and counselors so they are more inclined to recommend 
the program to their students.
    Another important aspect is encouraging the right kind of 
learning at early stages of a student's development. Toyota 
maintains a close working relationship with Project Lead The 
Way, a nationwide program that supplies innovative science, 
technology, and math curricula. Other STEM partners include 
FIRST Robotics and VEX Robotics.
    Strong alignment between the manufacturing and education 
sector is of utmost importance to Toyota. We are thankful that 
the committee passed the Workforce Innovation and Opportunity 
Act. Your emphasis on requiring greater business community 
involvement in a State workforce development decision making is 
proving very helpful.
    As I mentioned before, I was recently appointed by Governor 
Haslam to serve on the Tennessee Workforce Development Board. I 
am honored to serve in this position, and grateful that my 
Governor believes my Toyota experience can help foster an even 
stronger workforce development system in our State.
    Aligning Perkins CTE reauthorization with WIOA would make 
the workforce system more efficient and easier to navigate for 
employers interested in lending help.
    Congress should reauthorize the Perkins CTE Act, and in 
doing so, should consider the following improvements. First, 
align CTE programs directly with the needs of regional, State, 
and local labor markets in manners consistent with WIOA. 
Second, encourage and support meaningful collaboration between 
secondary and postsecondary institutions and employers.
    Third, increase student participation in work-based 
learning opportunities. Finally, promote the use of industry 
recognized credentials.
    Reauthorization of Perkins CTE in this manner will 
strengthen the workforce pipeline across America and help 
students succeed in industries like manufacturing. I urge this 
committee to take action as soon as possible.
    Thank you for allowing me to testify before the committee, 
and I am happy to answer any questions.
    [The statement of Mr. Bates follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
      
    Chairman Kline. Thank you. Dr. Sullivan, you are recognized 
for 5 minutes.

STATEMENT OF MONTY SULLIVAN, PRESIDENT, LOUISIANA COMMUNITY AND 
                    TECHNICAL COLLEGE SYSTEM

    Mr. Sullivan. Chair Kline, Ranking Member Scott, members of 
the committee, thank you for the opportunity to be with you 
this morning, thank you for the opportunity to be a part of 
this distinguished panel. Thank you for giving me an 
opportunity to share with you a few thoughts on the future of 
the Carl D. Perkins Career and Technical Education Act.
    I am Monty Sullivan. I serve as president of Louisiana's 
Community and Technical Colleges. We are a system of 13 
community and technical colleges serving over 150,000 students 
across Louisiana and providing administration and leadership 
for the Perkins' efforts there.
    I am also a member of the American Association of Community 
Colleges and a Board member for Rebuilding America's Middle 
Class or RAMC.
    Reauthorization of the Perkins Act is a critical step 
forward for our Nation as addressing the skills gap continues 
to be one of the foremost challenges for igniting our economy 
and more importantly, for improving the lives of Americans from 
all walks of life.
    I hail from a State with a rich career and technical 
education history. In fact, recently, Lumina Foundation's A 
Stronger Nation report indicated Louisiana's overall working 
age postsecondary attainment rate improved from 50th in the 
Nation to 26th in the Nation.
    A key factor in that dramatic improvement was the inclusion 
for the first time of less than Associate degree credentials. 
Louisiana ranks first in the Nation in the percentage of adults 
with a high quality postsecondary certificate, as the highest 
level of attainment. Not often do we get to make claims like 
that in Louisiana.
    The strategic investment of Perkins' funds has been 
instrumental in achieving this accomplishment. This success has 
occurred in an environment with sharply declining State 
resources and increasing tuition. Meanwhile, Louisiana's 
economy continues to show strong workforce demands in spite of 
a recent downturn in the oil and gas economy.
    The combination of a strong market demand, narrowing State 
resources, and increasing tuition costs has forced our colleges 
to focus more keenly than ever before on responding to the 
workforce needs of industry, improving the value proposition to 
our students, and maximizing every single dollar that can be 
driven toward a career and technical education.
    Simply put, alignment of programs and resources to market 
demands has been key to our success.
    The following is a list of policy recommendations for your 
consideration. First, align the Perkins Act with the tenets of 
WIOA to focus on solving the workforce challenges of States and 
communities. WIOA provided a foundation for data, definitions, 
and success measures that focus on regional labor market 
demands.
    Labor market data should drive investments and be a key 
factor in performance metrics, specifically in the 
postsecondary measures area. States with access to earnings 
data should be able to use that data to demonstrate their 
performance. Funding should be viewed as a means to underwrite 
programs that meet future workforce needs, not fund traditional 
programs.
    Recommendation two, emphasize regional consolidated plans 
across education sectors with significant industry engagement. 
The most successful career and technical education programs or 
efforts have strong partnerships and substantive industry 
contributions, both financial and non-financial. These 
partnerships should be a basic tenet of the future of Perkins.
    Number three, encourage dual enrollment opportunities 
focused on completion of high demand credentials, not simply 
courses.
    Recommendation four, under the special populations 
provision of the Perkins Act, consider focusing on key 
populations.
    Community colleges serve a broad cross section of the 
American people. Those most in need of training are often 
adults with no high school diploma and returning military 
veterans. Consider making specific allowances for these 
populations within the Perkins Act.
    The fifth recommendation deals with accountability. 
Accountability should focus on end measures, not process means 
or unit measures. Set out the purpose of the Perkins Act and 
measure our efforts based upon outcomes meaningful to students, 
communities, and employers.
    The reauthorization of the Carl D. Perkins Act is an 
opportunity to target resources at one of the Nation's most 
pressing challenges, educating and skilling our most precious 
natural resource, our people.
    The programs funded through this act are today and will be 
more so in the future the path for millions of people to the 
American dream. I wish you the best in the work before you, and 
look forward to answering any questions you may have. Thank 
you.
    [The statement of Mr. Sullivan follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
       
    Chairman Kline. Thank you, sir. Thanks to all the 
witnesses, very inspiring stories. We are going to try to move 
with some alacrity here, mindful of Senator Kaine's need to 
leave a little bit early. We are going to try working with 5 
minutes per member but we may very quickly cut it to 4 so that 
everybody has a chance to participate.
    Let me start, Mr. Bates, in your testimony, you really talk 
a lot about the effectiveness of the advanced manufacturing 
technician, the AMT program, and how it helped address Toyota's 
workforce challenges. Toyota is a very large company.
    Mr. Bates. Yes.
    Chairman Kline. A lot of resources that smaller employers 
may not have or will not have by comparison. How have small 
businesses been able to participate in or benefit from the AMT 
program?
    Mr. Bates. Thank you, Chairman Kline. That is a wonderful 
question, and I can speak to my experience in Jackson, 
Tennessee with Jackson State Community College. Our community 
does not have a large manufacturer, even though I work for 
Toyota, our plant is about 315 team members. Most of the 
employers around our area are less than that.
    We were able to reach out to them and ask them what their 
needs were. Consistently, from talking with other H.R. 
managers, they have always struggled with finding skilled 
technicians. We recognize that by them participating in this 
program, they would also be able to take advantage of the 
opportunity.
    One of the key successes of this program is the work based 
learning opportunity, the co-op program, as we call it. I, 
myself, could not sponsor or have more than 2 or 3 co-ops a 
year, and other smaller manufacturers could only maybe take one 
co-op a year. By coming together, we could work with our 
community college and be able to support a cohort of 20 to 25 
students, and that is exactly what we did.
    This program is designed to allow even a small manufacturer 
with less than 50 employees, per se, be able to participate, to 
sponsor a co-op, and have them work at their facility, and then 
when the students graduates after 2 years with their Associate 
of Applied Science degree, not only do they have a degree, they 
have 2 years of work experience at the factory they are co-
oping. The employer has an opportunity to hire that student to 
come then work in their facility for the future.
    It is a great opportunity to bring all sizes of 
manufacturing together for this program.
    Chairman Kline. Good story. Thank you very much. Mr. Scott?
    Mr. Scott. Thank you, Mr. Chairman. Senator Kaine, you 
fought to expand career counseling, modernization of high 
schools with work based learning opportunities, and designation 
of CTE as a well-rounded education component of ESSA.
    You also worked to get relationship skills in there that, I 
assume, would be very helpful as one of the soft skills we keep 
hearing about.
    What can we do to make sure that what we did in ESSA is 
coordinated with the CTE programs?
    Senator Kaine. Thank you, Congressman Scott. It was an 
important part, I think, of ESSA and the reauthorization this 
committee and the Senate did. We did focus on the career 
counseling piece. I think some of the testimony of the other 
witnesses have suggested that is a really important part of 
this for teachers, counselors, and students, and their parents 
to understand how valuable these opportunities are.
    I think the key that we all should focus on is now that the 
Department of Ed is working with the chief State school 
officers to implement ESSA--my wife as Secretary of Education 
in Virginia is doing what 49 other secretaries are doing, 
pulling together the stakeholders, trying to figure out how to 
implement for the school year that begins in the fall of 2017.
    I think it is really important that through the Department 
of Ed and in our own interactions with our State officers and 
the States we represent ask what are you doing on the career 
counseling side.
    It is really important what you did by elevating CTE as 
kind of a core curriculum as part of the ESSA reauthorization, 
was to end the stigma that much of the testimony discussed. We 
have to make sure as the chief State school officers are making 
the implementing changes that does actually lift to front and 
center. I think this is really important work that we can be 
about between now and the fall of 2017.
    Mr. Scott. Thank you. We both work on judiciary issues and 
have found that CTE can be an effective strategy for keeping 
children engaged. How does your CTE Excellence and Equity Act 
help keep children engaged and reduce achievement gaps and 
things like that?
    Senator Kaine. Very important. I could not have had a 
better example than the witness who followed me. So many of our 
youngsters in high school who are really talented and able to 
do well, maybe they just do not see the relevance of what they 
are learning, and then they start to get into a CTE curriculum, 
and not only do they find that really exciting, but then the 
CTE curriculum reminds them why the academic subjects are 
strong.
    I have had numerous interactions with students, for 
example, who have decided to take CTE courses in the allied 
health fields, EMT, and suddenly their biology and chemistry 
grades go way up because they understand what the relevance is.
    The act on CTE excellence and equity that we are promoting 
on the Senate side would be a pilot project to really go into 
underserved students, students who are not academically 
successful but maybe they are not successful because they do 
not grasp the relevance to their future life, and do programs 
that provide them with student support, but also have 
significant connections to the private sector to regional 
workforce demands and higher ed institutions.
    It is that partnership, I think, that some of our students 
just do not know what is out there, when they see that 
partnership, they really catch fire about what their 
opportunities are.
    Mr. Scott. The chairman and I both mentioned in our opening 
remarks the difference between career and technical education 
today and what used to be an alternative to an education. Can 
you talk about the importance of making sure that we get the 
core academics as part of any CTE program?
    Senator Kaine. Absolutely important. And as I think about 
my own high school years, many, many years ago, vocational 
education was almost kind of a tracked system where people 
would be sort of pushed there if teachers or guidance 
counselors did not think they were college material, whatever 
that means.
    We want to raise CTE but we can't do it in a way that 
repeats sort of the tracking phenomenon of the past. I think 
that is why I really like this Middle STEP bill we have in. We 
have to equip students with the tools to start making choices 
among competing career paths that are all great.
    They start to make those choices when they are signing up 
for high school courses, but usually they are picking high 
school courses without having done a lot of intentional thought 
about what their career options might be.
    Middle school is not too early for kids to decide do I see 
myself working outdoors or indoors, or in front of a computer. 
You can get kids to start thinking about what works for them. I 
think we need to expand CTE but not repeat some of the kind of 
tracking mistakes of the past. If we do, we will compound our 
equity challenges.
    Mr. Scott. Thank you.
    Chairman Kline. Thank you. Mr. Wilson, you are recognized 
for 5 minutes.
    Mr. Wilson. Thank you, Mr. Chairman. I would like to thank 
each of you for being here, and particularly Mr. Tse. Your 
testimony is an encouragement to other young people to have 
successful lives and fulfilling lives, and I wish you well in 
your career.
    Mr. Bates, I was particularly impressed by your description 
of the employer driven training partnership you have developed. 
In South Carolina, we have attracted many blue chip companies 
such as Boeing, because of the ability to create skilled talent 
with advanced career and technical education workers through 
employer driven training partnerships such as the ones you 
described.
    A great example is the Boeing Ready SE partnership. This 
program has resulted in hiring over 4,500 program graduates 
since its founding in 2009. South Carolina was able to go from 
a State that did not have a significant aviation industry into 
one that is producing the world's most advanced wide body 
aircraft, the 787 Dreamliner, with 8,000 employees, and 
obviously suppliers across the State.
    This is why I would like to see these programs encouraged 
in the reauthorization of the Perkins Career and Technical 
Education Act. Could you speak to the emphasis that employers 
are placing on the availability of talent in deciding where to 
locate their major operations?
    Mr. Bates. Yes, Congressman. I think that is very 
important. In my community, the economic and community 
development group is very active in reaching out to global 
manufacturers to come relocate to our area. I think many States 
are the same way.
    I can testify that our AMT program that we established at 
Jackson State Community College was a determining factor for a 
recent manufacturer to come to our State and set up their 
manufacturing operation. They are an automotive supplier. That 
was one of the decision makers for them, they knew they had a 
workforce development program at a local community college that 
was going to be able to provide them with the skilled 
technicians they were going to need not only now but also in 
the future.
    These types of programs are absolutely essential for our 
continued growth in developing our global manufacturing 
leadership here in the United States.
    Mr. Wilson. I want to congratulate Tennessee. Dr. Roe has 
educated us on the success of Tennessee. From the perspective 
of South Carolina, we are very grateful with the success of a 
sister company, BMW, we are the largest exporter of cars of any 
State in the Union. Again, Mr. Tse, we still have room for you 
in South Carolina.
    We have tire manufacturing. Who would imagine South 
Carolina is now the leading manufacturer and exporter of tires 
with Bridgestone of Japan, with Michelin of France, with 
Continental of Germany, Giti Tire of Singapore. Again, it is 
technical education that has made a difference.
    Dr. Sullivan, in your testimony today, about creating jobs, 
I am really grateful as I cited in South Carolina, we have had 
terrific programs like Apprenticeship Carolina, the SC 
technical college system. With that and your background, what 
would you identify as the biggest challenges facing schools and 
businesses to partner to improve the CTE programs?
    Mr. Sullivan. Thank you for the question, Congressman 
Wilson. Certainly, the State of South Carolina has offered a 
great deal for many of us to learn from, and we are 
appreciative for the good work going on there.
    One of the things that I think is most important for us to 
do as community and technical colleges is to remain both aware 
of and keep pace with industry demands in terms of the 
workforce needs. Often times, that can be a difficult challenge 
because of the resource limitations.
    Perkins provides a critical opportunity for us to be able 
to make those investments to remain competitive in terms of the 
curriculum that we offer.
    One of the second areas that is very difficult for our 
colleges to keep up with is to ensure that our faculty members 
have the training necessary to be relevant in the classroom for 
students. That relationship back with business and industry, 
just as we talked about a few minutes ago, so very important, 
because industry often times can help us to not only know where 
they may be today but also to forecast where they are going in 
the future.
    Mr. Wilson. I want to commend Virginia for its success. One 
of the reasons we had success, it goes to the equipment, is a 
company could locate their manufacturing equipment in a 
technical school and reserve their proprietary information, and 
persons could be trained so that immediately when the facility 
is completed, a young person like Mr. Tse can go right to work 
and be very productive.
    I yield the balance of my time.
    Chairman Kline. I thank the gentleman. We are starting to 
run out of States, I think. I am not sure. I feel slighted, by 
the way. Ms. Fudge, you are recognized.
    Ms. Fudge. Thank you very much, Mr. Chairman. Thank you all 
for being here today. It was enlightening to hear your success 
stories and as well to hear our chairman talk about the need 
for these programs now more than ever.
    And with that said, I do have to note that Perkins' funding 
has declined by 24 percent since 1998. So if we need these 
programs, certainly we need to take a look at how we fund them.
    Senator, can you just talk to me about how this reduction 
in funds has hindered the expansion of high quality CTE 
programs?
    Senator Kaine. The reduction of funds is sort of coming at 
exactly the wrong time because the good news is I think there 
is a renaissance of awareness that this is really important, 
and with the economic circumstances, especially the fiscal 
reversals and recession of 2008 and 2010, there is even more 
need for training, and more need for people to receive that 
training.
    So the funding has been going down at the same time as the 
need has been increasing, and thank goodness, we have all been 
realizing the importance of these programs. You get good bang 
for the buck out of these investments.
    Ms. Fudge. I just want to say, as we all fly a lot, I was 
sitting on a plane one day next to a guy. This is in the last 
month. He probably had the dirtiest fingernails I have ever 
seen in my life, right. I asked him what he does. He teaches 
welding to young people at a high school in Texas.
    He started to talk to me about how important Perkins was. 
He started to talk to me about what these young people have 
accomplished through his programs, and how they have succeeded 
when no one thought they would succeed.
    I agree 100 percent, we need to look at the funding and we 
need to fund more of these programs so these young people can 
come out and do productive things. We know there is a shortage 
of welders in this country, or bricklayers, and masons. We need 
to train them. I think we can do that if we put the resources 
in it. I thank you for that.
    As well, Senator Kaine, last year, I introduced the Go to 
High School, Go to College Act, which would expand Pell 
eligibility, of course, for students attending early college 
high schools. You introduced the JOBS Act last year as well, 
which would allow Pell grants to students enrolled in short-
term job training programs.
    Can you talk a bit about why it is important for us to 
expand the use of Pell grants to these kinds of programs?
    Senator Kaine. I will get on my soap box, this is really 
important. This is an example of the second class status of CTE 
that still is kind of contained in the Federal laws. So a Pell 
grant, if you income qualify, you can get a Pell grant but the 
course has to be the length of a college semester. A lot of 
high intensity welding programs are 10 week courses. It is not 
the length of a college semester, it is not 14 weeks. We do not 
allow Pell grants for these intense CTE programs.
    Why don't we? The student income qualifies. It is because 
we have viewed those programs as second class. I will tell you 
another one. In the military, active duty, military tuition 
assistance benefit. You can get that if your CO says what you 
want to study is relevant to your MOS.
    You can use it at a community college or a college, up to 
$4,500 a year, but if you want to use $300 to take the American 
Welding Society's certification exam because you are trained as 
an ordinance enlisted officer, you can't use the money for the 
certification exam. You got to use it on a college campus. It 
makes no sense.
    There are still many policies that kind of hold the college 
and CTE on two levels. Some of the best policy we can do is 
going through and removing those vestiges of the day when CTE 
was not viewed as of equal measure. That is why we introduced 
the JOBS Act. So if you income qualify, take that 10 week HVAC 
intensive course. It does not have to be the length of a 
college semester.
    Ms. Fudge. I am hopeful that is something we can do on a 
bipartisan basis. It makes all the sense in the world. I am 
hoping that my colleagues will be supportive of it.
    Lastly, to you, Senator Kaine, please talk to me about why 
it is important for us to address the Higher Education Act as 
it relates to training educators in the CTE programs.
    Senator Kaine. Great question. The Higher Education Act is 
also maybe the best place to fix this Pell grant disparity that 
we were just discussing. But, training is critical. One of the 
bills that we have that I was discussing in my testimony, 
Educating Tomorrow's Workforce Act, really talks about this 
career training and professionalism.
    I think we have all seen many of our great teachers these 
days are career switchers, but there is no place where that is 
more the case than in CTE education. I am sure the teacher that 
you talked to on the plane with the dirty fingernails, before 
he was a teacher, he was a practicing welder, and then he was 
bringing that into the classroom.
    So professional development is really important, and maybe 
with a special focus on the career switcher, to bring them from 
the technical field into the classroom, they tend to be the 
most popular teachers in many of the schools where they work.
    Ms. Fudge. Thank you. I yield back, Mr. Chairman.
    Chairman Kline. The gentlelady yields back. Senator Kaine, 
it is not my role to be your staffer, but I understand we have 
reached your hard stop. I want to thank you again for your time 
and your expertise, and wish you good luck in turning that 
slide around. The Jesuits still need you.
    Senator Kaine. Thank you, Mr. Chairman.
    Chairman Kline. Thank you very much, Senator. Dr. Foxx, you 
are recognized.
    Ms. Foxx. Thank you, Mr. Chairman. While Senator Kaine is 
leaving, I want to say how much I appreciated his comments, in 
particular his experiences with seeing people who feel going 
into education that is not a four year degree is something less 
than a four year agree. I have experienced that myself.
    As far as I know, everybody getting a four year degree 
wants a vocation, therefore, my attitude is all education is 
vocational education, because everybody is out there wanting to 
get a job when they complete their credentials. We might keep 
that in mind as something to talk about.
    Mr. Bates, you recommended we consider ways to increase 
work based learning as part of the Perkins Act reauthorization. 
I think we can all agree that work based learning is important 
and it benefits students. If you want to say more about that, 
okay, but I think we get that.
    Tell me what Toyota did to get the schools on board with 
this idea because that is usually a big hurdle to face.
    Mr. Bates. Yes, that is a good question, Congresswoman. One 
of the things we had to do when we first were looking into this 
program is we had to be very honest with the schools. The 
community college came to our facility and were asking us how 
they were doing.
    We had to tell them, unfortunately, the graduates and the 
students that they were producing were not meeting our 
qualifications. That was measured through a pre-employment test 
skills test, technical test, that the graduates had to take. We 
had a 25 percent pass rate, which is not very good.
    They were very willing to hear and take that knowledge, and 
we shared with them the AMT program Toyota had utilized in 
Kentucky, and they then went out of their way and visited the 
communities and colleges in Kentucky. They went to Mississippi. 
They saw the value of this program, and they also saw and 
recognized the value of cooperative work experiences.
    I think that experience allowed them to then realize the 
benefit of it. The other benefit that we had locally is one of 
the directors of the program had gone through many, many years 
ago a tool and die journeyman's apprenticeship. He was able to 
then also realize the value of his work experience in getting 
to where he was in his career.
    Those types of experiences and reminding the schools that 
their job is to help produce students who can find employment, 
and the best way to do that is to provide them an education and 
also provide them with an opportunity to apply that education 
and develop that skill.
    Ms. Foxx. I have talked with Toyota people about the T-TEN 
program and about how you involve smaller employers in your 
program, too. I want to commend Toyota for having the 
perspective that it is important to help people get a good 
education throughout the community because you share these 
people back and forth.
    I am a big proponent, as my colleagues know, of 
apprenticeships, internships, on-the-job. I understand that 
Toyota has not registered the AMT program with the Department 
of Labor. Can you discuss the reasons you opted not to register 
the program?
    Mr. Bates. I think I can answer that question simply as 
logistics. The AMT program is not just a program that Toyota is 
doing by itself. We are really dependent upon the schools to 
provide the curriculum and the training. We have over 160 other 
companies that are part of the program in a variety of 
different States. To coordinate what that would require to get 
it federally recognized would be a very difficult endeavor.
    I would say, however, in my understanding of federally 
recognized apprentice programs, what we have would meet the 
qualifications for that program.
    Ms. Foxx. Thank you very much. Mr. Tse, at what age do you 
think schools should start exposing students to career 
exploration and CTE learning opportunities?
    Mr. Tse. Congresswoman, I personally feel the earlier the 
better. I think kids should make their own choices, they should 
be able to explore what is right for them as early as possible. 
As Senator Kaine mentioned earlier, I think middle school would 
be a great starting point for kids to look at different paths 
they want to take in life.
    Ms. Foxx. Thank you. Mr. Chairman, just one quick comment 
about the 25 percent pass rate. It does us no good to keep 
throwing money at these programs if we do not have 
accountability, and they are not producing what it is we need.
    I think this hearing is great, telling us how we need to 
reform the programs to get what we need for the money we are 
paying.
    Chairman Kline. The gentlelady's time has expired. Ms. 
Bonamici?
    Ms. Bonamici. Thank you very much, Mr. Chairman, and Mr. 
Ranking Member, I am very glad we are having this discussion 
today about how to strengthen the Perkins Career and Technical 
Education Act. It is something that comes up at almost every 
single high school I visit.
    In St. Helens, Oregon, which is a town of about 13,000 
people in rural Columbia County, there is a view of Mount St. 
Helens, that is where the town's name came from, they have five 
different CTE programs, all of which serve the community. They 
have an early childhood education program that runs a day care 
center. They are the only high school in Oregon that has a AAA 
certified auto repair shop.
    When I met with the instructor, he said we do not just 
teach students how to repair cars, I teach them business 
ethics, there are so many lessons there. Their construction 
students build tiny homes, which is kind of a win-win for 
communities that have housing challenges.
    I have seen so many students who are engaged because of the 
availability of these classes. Sherwood High School in my 
district has a girls only welding class. It is always full with 
a wait list. Newberg High School has a fabulous culinary 
program where students are learning chemistry and science as 
well as culinary skills.
    One of the things I want to emphasize, we all know about 
the skills gap. There are so many examples of CTE courses that 
are designed to really meet the local needs. Another example 
from my district is Yamhill Carlton High School in Yamhill 
County, in partnership with Chemeketa Community College. They 
have viticulture programs to teach people how to work in the 
wine industry, which is a big part of the economy there. It is 
the only high school I know of with a vineyard. They are 
teaching students the skills they need for those local jobs.
    As Senator Kaine mentioned, often times these CTE classes 
inspire students to do well in their other courses as well, and 
I am concerned that we are in a situation where we are denying 
opportunities to students to experience CTE courses, just 
because there may not be jobs available in that particular 
area.
    Students are learning important skills, like collaboration, 
communication, responsibility, as well as academics. I would 
have concern if we are only giving these opportunities to 
students if there are jobs that match up in the local community 
at that period of time.
    This is education. We need to make sure that students are 
having skills for the jobs of tomorrow that we might not even 
know about as well as the jobs of today. I am sure I speak for 
all my colleagues when I say I hope we can reauthorize Perkins 
and provide States and educators with the direction and 
resources they need.
    I know both Ms. Foxx and Mr. Wilson talked about the work 
based programs. Boeing in Oregon, for example, has an 
internship program, and they pay students to learn. Some of 
them go on to take positions with Boeing, many go to other 
similar manufacturing companies or go to apprenticeship 
programs that are operated jointly by Boeing and the 
International Associations of Machinists and Aerospace Workers.
    So I wonder if you could discuss, Mr. Bates, briefly, 
because I want to have time for another question, how are those 
work based learning opportunities--how can we expand those but 
particularly with focus on some of the rural areas?
    Mr. Bates. Yes, I think that is an excellent question, and 
that is a struggle in my State as well, in Tennessee. We have a 
large rural population that struggles to have those 
opportunities.
    I think one of the things that is very helpful is the 
community college system in my area does reach out to over a 10 
county area, and most of them are rural counties. One of the 
things that we have done is reach out to all the various high 
schools in those counties and educate them about the programs 
that are available, the CTE type programs.
    We have visited high schools, and we have talked to them 
about the value of manufacturing and the skills necessary to 
learn and be able to be effective in manufacturing.
    One of the things that is important is to also help them 
recognize that if we are able to provide them with good job 
opportunities, provide them with a great education, that their 
time in learning those skills are going to be beneficial to 
them in the long run.
    Ms. Bonamici. In the remaining few seconds, I want each of 
you to just talk about the importance of evidence-based 
practices, and we need to have ongoing research to help 
identify proven strategies. Any thoughts on how important that 
is, to make sure we are engaging all students in proven 
programs?
    Mr. Sullivan. Perhaps I will begin. I think career and 
technical education is a natural fit for evidence-based 
practice. There are lots of examples out there, not only of 
exactly the skill sets that are needed within the curriculum 
but also the outcomes.
    As we talk to employers across Louisiana, they have said to 
us show me a quality program and we will show you graduates 
that are making a great income. The evidence not only is 
happening within the curriculum but as well within the earnings 
side of things.
    Ms. Bonamici. I see my time has expired. I yield back. 
Thank you, Mr. Chairman.
    Chairman Kline. I thank the lady for yielding back. Dr. 
Roe?
    Mr. Roe. Thank you, Mr. Chairman. Mr. Tse, I can do a very 
sophisticated operation on your wife or your family, but my air 
conditioner does not work on the third floor of my house right 
now, and I need you in Tennessee.
    We are not a wealthy State in Tennessee. We do not have a 
State income tax. We have the lowest per capita debt in the 
Nation. We had the largest education gains in the country for 
three years in a row. We had the second fastest job growth. We 
have no road debt. We are a very well run and managed State, 
yet we recognized in our State that career and technical 
education was incredibly important. We are the only State in 
the Union that provides free community college and technical 
education.
    If you leave the workforce, let's say you lose your job, 
something happened to your job where you were, there is a 
program called Tennessee Reconnect. You can come back in and be 
retrained. This was something we recognized for the future of 
our State.
    It will not pay dividends for 10, 15, 20 years, but 
Tennessee is investing heavily in CTE education.
    One of the things I want to get to fairly quickly--by the 
way, just another comment, during the height of the recession, 
90 percent of the people who graduated from our technical 
schools got jobs, during the height of the recession, when 
other people were looking for jobs everywhere.
    There is a huge need for what you are doing. I am totally 
supportive. What I want to do is if Tennessee can do this and 
make this investment, and we have like the 4th or 5th lowest 
per capita income in the country, why don't other States do it?
    What I want to know is how do we streamline this, and Dr. 
Sullivan, you touched on it in your comments about the four or 
five things we could do. How can we make this money go further?
    Mr. Sullivan. Thank you for your question. I think probably 
the beginning point is to have consolidated plans across 
educational sectors. The notion of having a local application 
plan for a secondary school system and a separate plan for 
postsecondary education, both of whom are probably trying to 
engage with employers separately, is a non-starter. It really 
is not very efficient use of the dollars.
    When we begin to think about it, we have to think about the 
act, more so turning the telescope around from the other end, 
and begin to think of it from the labor market perspective and 
the employer perspective, rather than from the educational 
entity perspective. I think that is a big shift in our 
thinking.
    Mr. Roe. That is how you would coordinate the WIOA that we 
did a couple of years ago.
    Mr. Sullivan. Yes, sir.
    Mr. Roe. Mr. Bates, one of the things I wanted to ask was 
basically what you all did at Toyota was private sector driven. 
You had to get skilled technicians to work in your plant in 
Jackson, Tennessee, or otherwise you could not be competitive 
in the world.
    Mr. Bates. That is correct.
    Mr. Roe. You reached out to the technical schools, private 
sector reached out to the public sector, and you worked 
together to try to create this opportunity not only for the 
students but for job creation. Am I correct?
    Mr. Bates. Yes.
    Mr. Roe. Is that the way we should be going? I believe this 
top down approach we do here, where we try to tell you what to 
do, is the wrong way. I believe the bottom end approach where 
you all are on the ground working every day, you know what your 
needs are--one of the things we have not mentioned, and in a 
bipartisan way, we worked on this last week.
    One of the things I hear at home all the time is can you 
pass a drug test, something as simple as that, can you just 
pass a drug test. Will you show up to work on time. Those are 
soft skills, I realize, but those are just as important as the 
other technical skills that you are learning.
    One other question I have is as the committee looks into 
this reauthorization of Perkins, what reforms should we 
consider to allow States to meet the unique educational 
business needs? What should we do?
    Mr. Bates. I think it is important to reach out to the 
local industry to find out what specifically is necessary. I 
have to give credit to Governor Haslan in the State of 
Tennessee. Many years ago, four or five years ago, he went 
through the entire State and had roundtables with educators, 
with local industry, and had discussions, what is it that we 
need to provide.
    In our community, it was we need assistance with helping to 
provide for the skilled training for the skilled technicians 
for our future workforce. He was able to take that information 
from across the State and develop various programs that allow 
us to have things like you mentioned, Tennessee Reconnect, 
Tennessee Promise, which encourages young people to look at 
technical education and community colleges as a way to get that 
technical education for their future.
    Mr. Roe. Many people, as has been pointed out, will just 
use that as a stepping stone to then go further their education 
in something else as Mr. Tse did.
    One final comment. I think one of the frustrations I have 
in this place is we have an overtime rule that is going to come 
out this week. The University of Tennessee, one of my alma 
maters, complying with that one rule, not a law but a rule, is 
going to add 4 percent to the tuition of every student that 
goes to the University of Tennessee, whereas one of the biggest 
barriers to education today is cost.
    Vanderbilt University, complying with all the rules and 
regulations they have to do, costs them $150 million to comply 
with government rules and regulations.
    I yield back, Mr. Chairman.
    Chairman Kline. The gentleman yields back. Mr. Pocan, you 
are recognized.
    Mr. Pocan. Thank you, Mr. Chairman, I appreciate it. Thank 
you to the witnesses. I get a chance to visit a number of 
technical schools, not only in our State, but in other States. 
One of the things they always point out is the value of the 
Perkins' money, and they show me what they used it for and how 
many people it is helping. That is really appreciated.
    In fact, just last week, I was at Gateway Technical 
College. They had a group of children, a couple busloads of 
children, doing Sumo wrestling robots, to get the interest, and 
it was great watching the energy and participation on that.
    I do want to echo, I think, Ms. Fudge's request about why 
it is still very important that we look at the funding. I have 
seen the funding in these facilities.
    I would like to try to get to three areas. The first one, 
Mr. Bates, in one of your suggestions, you talked about more 
student participation. I was hoping you could just expand on 
that a little bit, and also talk about teacher participation. I 
think as Senator Kaine just started mentioning a little bit, we 
need that pipeline of those teachers, especially people 
entering mid-career, but often they do not have a lot of say in 
the Perkins program directly. Could you just address that point 
you were talking about and maybe add about teachers?
    Mr. Bates. Teacher involvement is absolutely critical. One 
of the things we have done at our facility is we have reached 
out to teachers and exposed them to what today's manufacturing 
is.
    In fact, while we have students come in and they walk 
through our plant, and they are bright-eyed and excited about 
the technology that we have, I have always found the facial 
expressions of the teachers much more entertaining, because 
they cannot believe the amount of technology that we have.
    We have robotics that are moving pieces of product. We have 
a lot of automation that is moving things back and forth. They 
cannot believe that manufacturing is the way it is today.
    That exposure to a teacher is extremely important.
    We have offered summer externships for teachers to come and 
work in our plant for the summer, whether they are a math 
teacher, whether they are a science teacher, we have even had 
English teachers come and work in Toyota facilities, to learn 
what it is like to work in manufacturing so they can then go 
back to their students and talk about how what they are 
teaching applies in the real world.
    That exposure and giving teachers that opportunity to see 
what manufacturing is, is absolutely critical in their further 
education and understanding.
    Mr. Pocan. Great, thank you. Dr. Sullivan, I had listening 
sessions last week in the district. Someone came and talked to 
me about specifically the question--I was hoping you might be 
able to address this or if you know, some best practices, we 
have a lot of people who actually are doing gaming in our area. 
It is one of our three kind of growing industries.
    They said that Perkins is not always available for that, 
and sometimes they are afraid that some of the things we may be 
teaching with Perkins might be things that might be a little 
bit maybe antiquated in a few years.
    Can you just address that a little bit? I would like to be 
able to get back to my constituent.
    Mr. Sullivan. Sure. Thank you for the question. This is one 
of the areas where I think we need to aim the Perkins' resource 
at those efforts that are in emerging markets. Sometimes, that 
puts you on the bleeding edge rather than the cutting edge.
    I think you have to be careful that the investment is being 
made in an area that is going to pay off for your communities, 
for your schools, for your colleges, but imagine for a second 
the critical thinking that goes on in some of the gaming 
programming areas. They are certainly a benefit to the student. 
If you can demonstrate that it is an emerging market, I think 
it makes sense to be able to make those investments.
    Mr. Pocan. Thank you. Just a general question, for anyone 
in the remaining minute and a half. The point that Senator 
Kaine brought up about a stigma surrounding CTE sometimes in 
our society.
    I have Madison, Wisconsin in my district. I have heard 
stories of people are picked up in cabs from the airport by 
people with Ph.D.'s in Russian literature, but I have a buddy 
who got a technical degree and is working on safety and 
construction sites, and he is doing extremely well for himself 
in just a short amount of time coming out of technical college.
    Can you address that a little bit, some ideas about how we 
can help work on that issue?
    Mr. Sullivan. I think we have to begin with the notion that 
there is a great deal of math and science that goes on for that 
welding faculty member. Imagine for a second, geometry, as an 
example, that goes into angles, as someone begins to think 
about how to apply two pieces of metal together, the chemistry 
behind it.
    We have a mindset, I think, that has to be broken to begin 
to think about the academic side of what goes on in career and 
technical education. The other side we mentioned a second ago 
with critical thinking. There simply is not an area of 
education more so than career and technical education where 
critical thinking is important.
    Mr. Pocan. Anyone else want to address that?
    Mr. Bates. I think the stigma is unfortunately there, but 
what we can do is help to educate what career and technical 
education is. The science and the math that our technicians are 
utilizing to program the robots, to troubleshoot the robots, 
that is engineering work that is being done. It is not what 
people think of career and technical education today.
    Mr. Pocan. Thank you. I yield back.
    Chairman Kline. The gentleman yields back. Mr. Walberg?
    Mr. Walberg. Thank you, Mr. Chairman, and thanks to the 
witnesses for being here today, and your testimonies have been 
instructive. I just want to thank my colleague, Dr. Roe, for 
bringing up the overtime rule. We are talking about making a 
value and using our resources wisely for training, especially 
in CTE, and yet we find ourselves siphoning off more 
opportunities as a result of wrong-headed regulatory 
impingements on the system working. Appreciate you bringing it 
up.
    Dr. Sullivan, I have talked with a number of employers, 
including Toyota, in my district, who have told me they do not 
believe that students are presented with a full picture of 
their educational and career options.
    You have pointed out some things about teachers coming 
through site visits and being amazed with what they are seeing, 
and maybe that is one of the key concerns.
    As a result, they find it difficult to encourage students 
to pursue CTE careers, careers that are amazingly diverse, as I 
have walked through manufacturing sites, small businesses and 
large alike. A diverse career field, financially rewarding, 
fulfilling. In fact, some jobs that will never leave. They are 
there.
    If a person is willing to climb an energy pole or work on a 
roof or to work in a basement, build a construction, a 
machinist, too and die makers, welders. I can go on and on of 
areas that are amazing with opportunity.
    What role should career guidance and career awareness 
activities play in promoting the value of CTE programs, and 
ultimately, fulfilling careers?
    Mr. Sullivan. Sure. Career guidance is certainly a critical 
component, but I think it begins even before that. It is so 
very important to have industry engaged from the very 
beginning.
    A classic example, just yesterday, in fact, JPMorgan Chase 
announced an investment in the City of New Orleans. I was at 
Warren Easton High School for the New Skills for Youth 
initiative. Where JPMorgan Chase sees an opportunity to invest 
in the people because there are specific outcomes that they are 
looking for, it is indeed an investment, not a gift.
    Having those students exposed to local industry early on, 
be it middle school, as was pointed out a few minutes ago, I 
think it is important that we not lay that burden upon 
counselors only. It is important that counselors have partners 
in business and industry from the beginning that not only 
informs where a student may go, but it also informs the 
curriculum, it informs the equipment, it informs the teaching 
background that individual faculty should have.
    It also ultimately leads then so students begin to think of 
our institutions and our programs as an entre into a specific 
industry. That is a view that I am not sure many students have 
today, but we certainly have to begin to change that direction.
    I think as you have industry involved with those 
counselors, they have a much better opportunity to tell the 
story of the career path.
    Mr. Walberg. You bring up a great point there, that 
comradeship of industry with education. We also have a 
challenge of the peer pressure that I am seeing from parents 
who think Billy and Susie down the street went to University of 
Michigan, so my Tommy and Nancy have to go there as well, as 
opposed to seeing the unbelievable opportunities that are 
expanded beyond that, not just simply with a four year 
institution but sometimes the stacking of certificates. How do 
we deal with that?
    Mr. Sullivan. You are absolutely correct, and I will give 
you one example. As chancellor at Delgado Community College, we 
would point to our allied health programs where more than one-
half of the students graduating from those health care programs 
already held a Baccalaureate degree. These are students going 
back to college to earn a credential that would ensure they 
were able to go to work.
    Over time, I think enough graduates living in basements 
will help us as a Nation understand that perhaps alignment of 
curriculum and alignment of programs, the work that has gone on 
by Tony Carnevale and the folks at Georgetown, really sort of 
aims us at major matters. How much you earn is directly related 
to what skills you have. As a Nation, I think ultimately we 
will get there, but we are certainly not moving as quickly as 
we should.
    Mr. Walberg. Mr. Bates, as the committee looks to reform 
and approve this law, how can we streamline programs to ensure 
Federal dollars enable students to develop the right skills to 
meet the 21st century needs?
    Mr. Bates. Again, I think it is important that we have 
involvement with education and industry leaders to talk about 
what are those skills so that we are targeting that funding to 
the appropriate skills that are going to not only supply the 
skilled workforce for today but that industry that understands 
what the technology is going to be in the future.
    By sharing that knowledge with the educational partners, we 
are able to make sure that the curriculum is established that 
is going to fund the future training needs as well.
    Mr. Walberg. Thank you. I yield back.
    Chairman Kline. The gentleman yields back. Mr. Takano?
    Mr. Takano. Thank you, Mr. Chairman. I certainly want to 
push back a little bit on the overtime rule. I might just 
mention that in 1975, over 65 percent of salaried workers in 
America were entitled to overtime pay. Today, that percentage 
of the workforce is down to 8 percent. It is high time that we 
updated the overtime rule, and I am very, very eager to see 
what the President does today.
    Mr. Tse, I wanted to just congratulate you on your very 
brave and courageous path.
    Mr. Tse. Thank you.
    Mr. Takano. Especially as an Asian American young man, 
there is a tremendous amount of pressure for us to succeed in 
higher education. I know you must have suffered mightily from 
the expectations of your family.
    You are such a great example to so many Asian American 
young men and women across the country to show that not 
everybody has to go to college to succeed. Indeed, I think you 
probably have stackable credentials that you have plans or you 
have already done so, getting your degrees in higher ed. You 
have made a remarkable path, and you have shown people that 
way.
    We need to destigmatize the pathway for all minorities 
because of the past reputation of how vocational education was 
a dumping ground, and a way to put people who were ``not 
qualified'' for college into programs that did not serve them 
well.
    We need to re-do the image of career and technical 
education for all Americans, and you certainly serve as a great 
example. I wanted to just take a moment to say that.
    Dr. Sullivan, yesterday the Department of Education 
announced that the Obama administration would make Pell grants 
available to high school students who simultaneously take 
college courses at 44 colleges or universities.
    How can we encourage dual enrollment opportunities, and how 
does the Louisiana Community and Technical College system 
foster opportunities in the context of our discussion today?
    Mr. Sullivan. Sure. Thank you for your question. Dual 
enrollment is an absolutely critical strategy to solving the 
Nation's attainment issue. The dual enrollment effort needs to 
be focused, however, not simply on completion of courses, but 
rather on completion of credentials, and those demand 
credentials matter.
    Dual enrollment has been a strategy and a focus for us in 
Louisiana for a number of years now. I can tell you that the 
career and technical education side has a particular bin for 
those students who may not perform well in the academic areas 
simply out of interest as much as anything, but we are also 
seeing a large number of minority students who are enrolling in 
those career and technical education fields, be it dual 
enrollment, we are seeing those students complete credentials 
and benefit going forward.
    One of the changes that has happened for us as a Nation, I 
believe, in higher education, is education is now becoming much 
more iterative in nature. We talk about stackable credentials. 
Many of these students are completing their first credential, 
going out into the world of work, and then being able to gain 
those certifications.
    You heard it earlier from one of my fellow witnesses here 
about the ability to come back and gain some certification that 
allows you to go to that next level. Dual enrollment certainly 
feeds into that iterative nature as well.
    Funding for dual enrollment is an absolutely key strategy 
for us as a Nation.
    Mr. Takano. Thank you. Thank you. I am very focused on that 
area, trying to make that happen, make our Federal funding, 
whether it is Pell grants or whatever, State grants that go 
into this, these funding streams for dual enrollment are 
important, and we need to be able to give you the pots of money 
to reduce the class size, because it is expensive education as 
well.
    I want to make sure I throw out a call out to Toyota and 
Mr. Bates, remarkable stuff you are doing with the AMT program, 
which is really maintenance, it is maintaining the machines, 
but it is not the maintenance of our fathers or grandfathers' 
day, sweeping floors, maintaining the place. This is about 
maintaining robots and fixing robots.
    Mr. Bates. Yes.
    Mr. Takano. There was no Federal money involved. This was 
driven by a partnership. I want to congratulate you for working 
with the community college system and that community college 
system working with you.
    Mr. Bates. Yes. I will not say there was not any Federal 
dollars. The community college was able to use some prior 
Perkins' money to be able to provide for some of the equipment 
and the training that was necessary for the instructors.
    Mr. Takano. Thank you for clarifying that. So there was 
some federal. Mr. Tse, quickly before my time runs out, I see 
as low as 5th grade, students have a self-awareness of whether 
they are good with their hands or not, things like that. I 
would take it back from middle school all the way down to 5th 
grade as far as what we do to reach younger people.
    Chairman Kline. The gentleman's time has expired. Mr. 
Allen?
    Mr. Allen. Thank you, Mr. Chairman, and I want to thank the 
panel. This has been a very good discussion. When it comes to 
reauthorizing programs, at least everywhere I go in my district 
and really the State and across the country, people ask me when 
are you all going to quite spending so much money, when are you 
going to balance your budget.
    That makes the reauthorization of these programs very 
difficult, and that is why we are here today, to try to 
determine where we can get the best bang for the dollars we 
invest. That is what the American people expect of us.
    Obviously, one of the things we have to do is grow this 
economy and get people back to work, able bodied people back to 
work. That will help us with our mandatory spending problem, it 
will reduce that, which would lead to balancing this budget.
    As a former member of the business community, I am 
committed to growing the economy, and I know you have to invest 
money to get a return, to grow revenues. In fact, that is why I 
ran for the United States Congress.
    As far as the thing that I see at least with education and 
developing a skilled workforce is motivation. How do we 
motivate young people to want to go and get the training and 
get a good job?
    One of the greatest gifts God has given me is to give 
people that opportunity to get a good job, give them the 
dignity and respect they deserve, and allowing them to support 
their family, their church, their community, and this Nation.
    So, Mr. Tse, you obviously were motivated. From your 
personal testimony, what clicked in you that said hey, this is 
what I want to do? Of course, obviously, you have been very 
successful.
    How can we apply that to those in the fields who are 
experts to make sure every student, everyone, gets that 
opportunity, and makes the best of the opportunity as you have?
    Mr. Tse. Thank you for that question, Congressman. I 
personally feel for me, at least, in my personal experience, it 
was the gratification of seeing something being built, instead 
of just looking through a textbook of why you need to do 
something a certain way.
    It was actually realization of hey, if I do it this one 
way, it is going to take me longer and it is more difficult to 
do, versus doing it this other way, which is--I will call it 
the smarter way. It may not be the easier way, but it is the 
smarter way of doing certain things.
    I think that is what I needed, that was the drive or the 
little push that I needed in high school to realize that hey, 
college is not the only thing out there for you. I may not be 
super good at getting good grades and reading out of a textbook 
and learning that way, but I can certainly learn with my hands 
in being able to do something like physically with my body. I 
think seeing something built is one of the greatest 
encouragements.
    Mr. Allen. Yes, I worked my way through college as a 
welder. I have always enjoyed and still enjoy that, and was a 
general contractor in my business life. I, too, like to build 
buildings and understand your interest in the challenges it 
presents.
    Obviously, HVAC work has come a long way. It is very 
sophisticated this day and time.
    As far as the CTE programs, students with the skills needed 
in these high demand jobs, Mr. Bates, as far as students 
earning these industry recognized credentials, and students 
completing their programs to enter the workforce, what are the 
biggest obstacles that you see?
    Mr. Bates. I think the biggest obstacle, Congressman, is 
again perception and awareness. Many students for whatever 
reason are not aware of what is required to work in today's 
manufacturing business. They make a wrong assumption that I 
have to get an engineering degree in order to be successful.
    What we have been able to do by reaching out to these 
schools and educating teachers, counselors, and students, is to 
help them understand that they do need technical training. They 
do need a technical skill, but you can accomplish that debt 
free, you can accomplish that locally by participating at your 
local technical school or community college.
    I think by educating them and helping them to understand 
what is available to them, they will make the right choice for 
them because they know it is available.
    Mr. Allen. Good, thank you so much, and I yield back.
    Chairman Kline. The gentleman yields back. Ms. Clark?
    Ms. Clark. Thank you, Mr. Chairman, and thank you to the 
panelists for being here today on this incredibly important 
topic.
    In Massachusetts, I just wanted to give you a little 
snapshot, in the 2014-2015 school year, we had 2,800 culinary 
art students, 2,700 health assistance, 2,200 automotive 
technology, 2,000 studying electricity, 1,900 carpentry, 1,700 
cosmetology, 1,500 marketing, and 1,400 in early education and 
care, with a wait list of 5,000 high school students who could 
not find an entry point.
    We have a recent study out by Northeastern University 
finding that Massachusetts business owners find our vo-tech 
school graduates to be more job ready than their peers who went 
through college prep programs.
    We know how vital this is, not only to our students, but to 
our economy. One of my questions is as we look at some of our 
European counterparts, in particular, Switzerland, Germany, 
Austria, we see these robust apprenticeship programs that we 
have touched on a little bit.
    Senator Kaine has offered some legislation that would give 
tax credits for businesses and employers who are establishing 
apprenticeship positions. Are there other things you think we 
should be doing or policies to further the robust public/
private partnerships that you have already discussed?
    Mr. Sullivan. Thank you for your question, and certainly 
apprenticeship is a key strategy in the overall effort. I will 
tell you that most recently in some work with Dow Chemical, our 
Louisiana Community and Technical College systems really 
formalized the apprenticeship effort.
    One of the things we have learned through that process is 
not only the value of apprenticeship, as we have known that for 
a number of years, but also the need to sort of streamline the 
processes for approval. I think that was referenced earlier in 
some testimony.
    That is one of the areas that I would really encourage us 
to think of, how do we create apprenticeship programs' approval 
processes and funding opportunities that are in a much more 
streamlined kind of approach.
    The other portion of this is apprenticeship is a formalized 
way for us to develop an industry relationship that we probably 
should have had anyway. There is an important element or 
underlying factor there of business and industry relationship.
    Ms. Clark. Mr. Tse, do you believe that the apprenticeship 
also has a component that could help reduce some of the 
residual stigma that we are seeing? Do you think that is an 
important piece, if people are able to see the jobs and the 
opportunities sooner and in a more concrete way?
    Mr. Tse. Yes, absolutely. I feel the quicker that students 
are able--the younger people are able to see that these job 
openings are out there and that they can streamline their way 
directly from school into employment, that is more 
encouragement for them to go through these programs.
    I think the quicker we can show them that, it is kind of 
like the light at the end of the tunnel, as soon as we can show 
them, it is more likely they would be able to succeed in those 
programs and enroll even.
    Ms. Clark. Great. My other question, the Perkins CTE Act 
also provides supports for special populations. There is a long 
list, but including individuals with disabilities, low income, 
pursuing non-traditional career paths, single parents, 
displaced homemakers, and English language learners.
    Of the people who come through your doors, either as 
trainees or recently trained employees, how many do you think 
fit this special population definition, and can you tell me 
about some of the support services for these students? 
Particularly, I have in mind single parents. We see child care 
as an incredible cost for families to bear. I wondered if any 
of you had experience in that area in particular.
    Mr. Sullivan. The American community college is typically 
about two-thirds female, typically many of those female 
students are single mothers. What we traditionally see as we 
look at the special populations are a great deal of additional 
services needed for child care, as you pointed out, also 
different kinds of accommodations.
    I think as we consider special populations, it is really 
important that we not leave out the American citizen, who for 
whatever reason was not able to earn a high school diploma. 
Most students do not drop out of high school as a result of 
academic issues. They drop out of high school for social and 
personal reasons.
    Where do they turn if they do not have that opportunity to 
be trained and educated so they can pursue a happy life? The 
American dream, as we know it.
    I would just encourage us to think about expanding that 
definition. The second group, there are a great number of 
benefits that are available to returning veterans, but I really 
think it is important that we consider returning veterans as a 
component of those special populations.
    Also to sort of get out of the mindset that special 
populations are the traditional definition that has been in the 
Perkins Act, and expanding the possibilities for roles or areas 
where perhaps some of our more traditional students have not 
been represented as greatly as perhaps they have in the past.
    Ms. Clark. Thank you. I see my time has expired.
    Chairman Kline. The gentlelady yields back. Mr. Rokita?
    Mr. Rokita. I thank the chairman for the hearing, and I 
appreciate everyone's testimony. I was going to start last with 
this, but Dr. Sullivan, since you mentioned pursuing a happy 
life, i.e. the pursuit of happiness, let me start there.
    What concerns me most about career and technical 
education--by the way, I am a supporter. In the subcommittee I 
lead, we have hearings around it and all that. My last direct 
interaction with career and technical education was back in the 
80s. From then to now, I worried about the ability to 
critically think, and if that is being taught, right?
    If you are going to run a free Republic, we need engaged 
citizenry who can question our government, decipher the role 
between government and the individual, the Federal Government 
and State governemtn, on and on.
    I am not talking about partisan politics. I am not even 
talking about civics courses. The ability to critically engage 
and think in order to maintain a free society.
    How does CTE programs do that in the here and now?
    Mr. Sullivan. Thank you for your question. I think that is 
an absolutely vital part of the whole career and technical 
education landscape.
    If you were to look across the industry based 
certifications that are approved out there, in any given field, 
I think you will find woven in every single one of those 
industry based credentials a component of critical thinking.
    It is the foundation of nearly every aspect, be it 
manufacturing, be it HVAC, construction, nearly any of the 
fields you can think of, even the medical fields.
    One of the most important facets of teaching any of the 
medical programs is that ability to critically think about what 
is going on with our patients.
    Mr. Rokita. Does it translate into the broader social --
    Mr. Sullivan. There is no question it translates into the 
broader social, and also the thing that I think is really 
important is it provides a foundation upon which these students 
can continue their education and pursue advanced degrees.
    That ability to critically think, our faculty say this to 
us regularly, they come to us and say a student who has already 
earned college credit and earned a credential and has been out 
in the workforce and understands the issues of day to day 
interactions and problem solving, is a better student in the 
classroom.
    Mr. Rokita. That is my follow up to Mr. Tse. I call these 
on ramps and off ramps, this idea that you might start out in 
HVAC technical ed, but if underneath it all you really are the 
guy to own your own HVAC company? What if you really are after 
all the entrepreneur and you want to pursue those skills?
    Were you worried at all or do you think that career and 
technical education could cut off some things so you do not 
have an on ramp back to a more traditional education or path 
that would lead you to be an owner or project manager like 
yourself or something like that?
    Mr. Tse. I was a little concerned at first when I was 
initially enrolled into the program, thinking that I would 
pretty much spend the rest of my days working in the field.
    Mr. Rokita. Which is fine for some.
    Mr. Tse. Right, which is perfectly fine.
    Mr. Rokita. Maybe for many.
    Mr. Tse. After I had started my apprenticeship program and 
learned more about how my apprenticeship program credits would 
be able to transfer into college credits and things like that, 
it kind of educated me and told me there were more paths after 
working in the field, that I could eventually own my own 
business if I wanted to.
    Mr. Rokita. You did not feel any paths cut off from 
yourself?
    Mr. Tse. No, sir.
    Mr. Rokita. Great. Thank you very much. Mr. Bates, talking 
about my subcommittee with great members on it, we held a 
hearing where we heard about the need for meaningful engagement 
among the business community in designing effective CTE 
programs and helping students explore careers available.
    I have toured several programs. Can you please list some of 
the equipment and training that Perkins should make eligible, 
especially the equipment? Is there some kind of eligible use 
for Perkins' money that would be advisable at this point?
    Mr. Bates. Yes. We have used Perkins' money in our local 
community college to purchase some of the training and 
equipment that is used in our lab. Hydraulic trainers, 
pneumatic trainers, welding simulators and welding equipment 
are all necessary for the proper training.
    Mr. Rokita. Anything we are missing?
    Mr. Bates. At this time, I am not aware of anything, no.
    Mr. Rokita. Okay. Keeping with you, Mr. Bates, you describe 
in your testimony how the AMT program expanded from one 
partnership between the plant and a college, to now 
approximately 400 students partnered with 160 companies.
    Given the rapid growth of the program, how have you 
preserved the quality? Any growing pains or anything?
    Mr. Bates. There is always growing pains in any situation. 
I think the one way that we have been able to preserve the 
quality of the curriculum is that we continue to be involved.
    We are regularly meeting with our local community college, 
not only an annual basis, but we have quarterly instructions 
with our maintenance leaders at our local plants. They are 
talking and sitting down with the local education leaders and 
understanding what the technology is, making sure we have the 
right equipment, and making sure the curriculum is teaching 
what is necessary for the future.
    Mr. Rokita. So, basic communication and leadership?
    Mr. Bates. Absolutely.
    Mr. Rokita. Thank you, all three of you, for your 
leadership. I yield.
    Chairman Kline. The gentleman yields back. Mrs. Davis, you 
are recognized.
    Mrs. Davis. Thank you, Mr. Chairman. I really do appreciate 
the hearing today. I think it reminds us there is a lot of work 
to be done out there, but on the other hand, there are best 
practices around the country, and I think often the problem is 
how do you scale that, and how do you engage, when you at 
reauthorizations, what is it that is not necessarily 
prescriptive but guides school districts, guides States 
throughout the country to do something that really has great 
merit down the line.
    A lot of great comments, really, your responses have been 
wonderful. Employability skills. We have talked a lot about 
technical skills.
    We know that employability skills are very, very important 
in how people are able to relate to one another in the 
workplace as well as to the task in front of them.
    Without again being prescriptive because I know people push 
back on those kinds of things, what do you think is critical in 
the reauthorization language that speaks to the issue of 
employability? We sometimes call them social emotional skills. 
How do you have the confidence often to even take risks and to 
talk about what the options are?
    How do you talk through that? It is communication, but it 
is a lot of things. Do you have some thoughts about that?
    Mr. Sullivan. The employability skills component is one 
that we have spent a great deal of time in Louisiana looking 
at, and one of the things we have determined is the most 
important or the biggest step that we could take is to have the 
actual employers in front of classrooms teaching employability 
skills.
    After all, they are the very same people that will be 
interviewing them, that will be reviewing their resumes and 
materials, and that will also be working with them on a daily 
basis to determine whether they can continue with the 
organization.
    Having that partnership there in a real and substantive 
way, having them in the classroom interfacing with students is 
certainly important.
    Mrs. Davis. Yes. At what point do you think that is a good 
idea?
    Mr. Sullivan. As early in the program as possible. One of 
the things that we have also been able to do is place in 
certain programs capstone courses, so that industry has an 
opportunity not only to come in and teach employability skills 
but you can also bet they are doing a little bit of work trying 
to determine which of those students they want to hire first.
    One great example, a partner of ours has made substantial 
investments in Louisiana, particularly around the welding 
program area, but they have also been really valuable to us in 
teaching our students employability skills.
    Mrs. Davis. Mr. Bates, did you have a comment?
    Mr. Bates. Yes. I think those employment skills are 
absolutely essential, and as Dr. Sullivan mentioned, it needs 
to happen from the very beginning. In our AMT programs, before 
they even start their technical questions, they are going 
through what is it to be a professional in the workplace.
    They are learning about what an employer expects from their 
team members. They are learning about the importance of 
punctuality. They are learning about the importance of asking 
good questions. They are learning about the importance of being 
dressed appropriately for the workplace.
    We teach that prior to the program even beginning, and the 
expectation is the students will not only be that way in their 
cooperative work experience, but they are also going to act 
that way in the classroom. The professors are expecting that as 
well in the classroom.
    Mrs. Davis. Should a lot of that be called out in 
legislation or do you think employability skills is a catch-all 
phrase that people can respond to?
    Mr. Bates. I think employment skills or employability 
skills, most educators and industry people understand what that 
means. I think it is important to encourage that in any type of 
legislation.
    Mrs. Davis. One of the other issues that we have talked 
about is teaching the teachers. I know that it makes so much 
difference when a company, for example, has a program for young 
people. We have one for middle school, Qualcomm does this in 
San Diego. The key is really that they engage the teachers 
early, months in advance, before the students come, and then 
the teachers participate, and then they are able to do it 
afterwards.
    That is unusual, I think. It is great. How do you see us 
trying to incorporate that into whether it is grant programs 
that perhaps companies can engage in? Obviously, Toyota does it 
with small businesses. How would you scale that? How would you 
find a way that we engage the teachers early and then they are 
able to continue to have the enthusiasm for the programs that 
the students have done?
    Mr. Sullivan. In Louisiana, we have a program every summer 
that we refer to as ``Super Summer Institute,'' where we bring 
together faculty members from all over Louisiana to earn the 
next level certification, to learn that next skill set.
    One of the tandem pieces of that is to be able to partner 
those faculty with industry partners so they have an experience 
beforehand and after the certification is earned. It gives 
perspective, I think, to what they are learning, and to the 
certification they are earning.
    Mrs. Davis. Yes.
    Chairman Kline. The gentlelady's time has expired. I want 
to welcome Mr. Langevin to our hearing, and without objection, 
he will be allowed to ask questions of our witnesses following 
questioning from our committee members, and we still have a 
couple of those left. Mr. Byrne, you are recognized.
    Mr. Byrne. Thank you, Mr. Chairman. Dr. Sullivan, I am the 
former chancellor for Postsecondary Education, State of 
Alabama, former chairman of the State Workforce Planning 
Council. I know what you do, and thank you for what you do. It 
is hard work. I was also on the state school board for eight 
years, so I saw CTE and Perkins on both sides, K-12 and 
postsecondary.
    One of the things that I have seen up here in Washington is 
there are plenty of things we are doing up here that we do not 
do very well and we waste money on. This is not one of them. I 
am sure we can do it better. That is partly what this is all 
about, to learn how we can do it better, how we can do it 
better so you can do your job better. We do not train anybody 
here. You do. We need to make sure we are giving you everything 
we possibly can to help you train people.
    We treat poor people in America like they have some sort of 
an incurable disease, there is no way to lift them out of 
poverty. We just feed them a bunch of money to take care of the 
symptoms of poverty, instead of saying we can let you out of 
poverty, and what you do every day is lift people out of 
poverty.
    Being from Alabama and Louisiana, I know what you are 
doing. I call it magic. You take somebody, probably the first 
person in their family that has ever done anything in the 
postsecondary environment, you take them from having no 
employable skill to having an employable skill, they go from 
being somebody with nothing to being somebody.
    And that is something we ought to be all about here in 
government and in Washington. Sometimes we get all gummed up in 
other things and miss that very important point.
    We did something we called ``dual enrollment,'' where we 
had kids in high schools, public high schools, people dually 
enrolled in a two year college. Literally, they could graduate 
from high school and in the same month get their--if it was an 
one year welding certificate, the certificate, or get an 
associate's degree in a high demand field, and that seemed to 
work for us.
    But, we struggled getting people interested in technical 
education because we told everybody you got to go get a four 
year Bachelor's degree in order to be successful. Mr. Tse is an 
example of where that is just not true.
    Mr. Tse, I wanted to ask you a question. I know you were 
thinking, there he was talking to Dr. Sullivan and all of a 
sudden he asks me a question. How far back should we start with 
young people in school, I am talking about before they get to a 
postsecondary environment, how far should we go back? Before 
high school?
    Mr. Tse. As I mentioned before, I think as early as 
possible.
    Mr. Byrne. Give me like--
    Mr. Tse. I think middle school is a good start.
    Mr. Byrne. Middle school. Like 7th grade? As early as that?
    Mr. Tse. Yes, as early as that. I think at that point 
people begin to--I think you can kind of see how a student or a 
young kid is doing academically at that point, and also look at 
what his interests or, his or her interests are. I think you 
should be able to open up those doors for them to explore and 
decide for themselves what they want to do in terms of higher 
education, whether it is going through a CTE program or going 
to college. I think that is a starting point.
    Mr. Byrne. You are in the construction field, is that 
right? HVAC?
    Mr. Tse. Correct, which is directly related to 
construction.
    Mr. Byrne. We probably could not teach 7th graders all the 
skills required by regulatory law to do everything in HVAC, but 
we could start them with some more basic type construction 
general skills, I guess?
    Mr. Tse. Sure.
    Mr. Byrne. I would think that would apply to some other 
areas, do you not think, Dr. Sullivan, that we could branch out 
to?
    Mr. Sullivan. Absolutely. You mentioned dual enrollment 
opportunities. By the way, commencement, this season of 
commencement that it is as close to a religious experience as 
you can have.
    Mr. Byrne. It really is.
    Mr. Sullivan. You have the opportunity to go back to your 
district and experience commencement. It is certainly 
important. I do think as we think about dual enrollment and we 
think about how far to go back into the curriculum, that just 
very basic career exploration, it is so very important.
    I have daughters at home, and I can tell you, at 6th grade, 
7th grade, 8th grade, so very important that they understand 
what careers are available to them.
    Mr. Byrne. You know, I had Associate degree nursing 
programs, and I could not figure out why we had a high 
attrition rate, so I brought the nursing deans in and I said 
what is the deal here, we have high demand for the nurses, got 
a big waiting list, yet we are not succeeding. They said too 
many of the nursing students were coming into the program with 
inadequate levels of science preparation in high school. So 
they couldn't hack the rather significant amount of science 
that these nurses and are we seeing that in other fields as 
well, Dr. Sullivan?
    Mr. Sullivan. I think it sort of hints at the question in 
this national discussion that we have around student success, 
and I think we spent far too much time thinking about how we 
push more students through a program, and far too little time 
thinking about the economic pull that would pull people through 
programs, if we offer the programs that have the appropriate 
amount of economic pull in the marketplace.
    I think of our process technology programs. These are the 
folks who operate facilities up and down the river in the State 
of Louisiana, so important to our economy. We do not have a 
completion problem in those programs because those folks are 
ending those programs earning $60,000 to $65,000 a year in the 
very first year.
    I think our focus is probably much more well placed if we 
think about program alignment and offering the correct programs 
in the market.
    Mr. Byrne. Great advice. Thank you, appreciate you being 
here. I yield back.
    Chairman Kline. The gentleman yields back. Mr. DeSaulnier, 
you are recognized.
    Mr. Desaulnier. Thank you, Mr. Chairman. It really is a 
pleasure to be here and hear the consensus in the sense of 
urgency.
    When we see great programs, as some of my colleagues have 
talked about, it is sort of spiritual issues, as you mentioned 
Dr. Sullivan. Programs in my district, many people do not 
realize that in the Bay Area, we do still have industry, and in 
the east bay we have significant industry, insomuch that we 
frequently hear from our major employers like Chevron, and 
Shell, and Dow, that they have jobs that they cannot fill 
because there are not enough qualified young people.
    So, we have tried to create and we have successfully 
created wonderful career academies. There is nothing like going 
into a disadvantaged community, a high school, and see 25 to 30 
kids and a message that says to the other 1,000 kids that there 
is a career out there where they can be an electrician or 
member of the UA, go out there and be a welder and make $65,000 
to $75,000 a year, particularly in a high cost area.
    So, that is wonderful. We have great programs. But, the 
balance, Dr. Sullivan, you got to this in your initial comments 
about proper oversight and performance, I think is where we 
sometimes struggle.
    The proper role for the Federal Government, and I do not 
disagree we should give more discretion to States and local 
government, but having been in the legislature and having been 
in the middle of a very difficult battle between--I remember 
private industry councils, and currently workforce investment 
boards, where the Chamber of Commerce for the State and the 
labor fed one of the most important pieces of legislation, was 
requiring workforce investment boards to actually have a 
minimum amount of their budget go to career, tech, and 
training.
    We had a heck of a fight because there are a lot of 
fiefdoms when the Federal Government, in my view, just 
advocates its role--so this goes to the balance, it is not 
saying we should be overly strict, but somewhere in there, Dr. 
Sullivan, it strikes me you have some experience, holding 
people accountable so they do not feel as if they can do 
whatever they want with the money around performance standards, 
and what the Federal Government's role is to make sure that's 
done.
    Mr. Sullivan. Great question. This is one of the areas that 
we are most proud of in Louisiana that we done a great deal of 
work. We have been able to leverage the occupational forecast 
that our state completes every two years, and begins a six year 
look outward as to what the occupational forecast is by 
occupation.
    Once we had that data, we were then able to tier and base 
that data depending upon demand, so now our work is about 
funding the occupations and the programs that feed the 
occupations where there is greatest demand.
    It seems like a relatively simple concept. It can be 
difficult because obviously there are those programs that will 
become not as prevalent in the demand market, and yet they are 
programs that have been traditional programs in institutions.
    We have to be willing to make the hard decisions. When we 
talked earlier about the difficulty of spending, spending is 
perhaps a problem, but as was pointed out here, it is not a 
problem as it relates to Perkins because we are investing in 
people. We have to ensure that those people who are completing 
those programs are actually going to be able to earn the jobs 
that get them to that vision or dream they have for themselves.
    Mr. Desaulnier. Mr. Bates, I sometimes hear from the 
private sector of sort of the cultural struggle of making sure 
the money is spent right, so in getting these partnerships 
right, getting the public agencies to work with private 
agencies.
    Do you have any sort of insights as to what makes your 
program work and what would add value?
    Mr. Bates. Well, I think the way we are making it work is 
that we are involved from the very beginning, that we have good 
communication between the various partners, and we have good 
communication with our local education provider. That's been 
critical.
    It is not an easy task. It required a lot of people willing 
to say we have to look at the bigger picture of how we can 
provide a very robust program for our community so we can then 
have the future workforce that is necessary.
    We have had to give up a little turf at times for the 
benefit of making sure that the program can be successful.
    Mr. Desaulnier. Mr. Tse, I loved your testimony. As you 
were growing up and going through these decision making 
thresholds, it strikes me that a lot of it is just the stigma. 
Kids are led to believe that they are not going to be 
successful unless they become a doctor or lawyer, go to a four 
year school.
    Could you speak a little bit more to that and your personal 
journey in overcoming that?
    Mr. Tse. So yeah. In general, I think your parents play one 
of the biggest parts of the stigma, because even today, I think 
if we ask ourselves honestly. I think that still persists in 
these conversations with children growing up, you should be 
going to a four year college.
    I certainly would not be teaching my kid that in the 
future, but I think that is step one, all the parents that are 
basically guiding all their kids growing up, they should be the 
first ones to provide them the opportunity and encouragement to 
go and learn something outside of going to a four year college.
    Chairman Kline. The gentleman's time has expired. Mr. 
Grothman?
    Mr. Grothman. First of all, just a general comment. I 
disagree a little bit with one of the comments made by one of 
the people questioned before. I do not think in America we ever 
remotely give up on poor people. We go out of the way to offer 
many programs to poor people that quite frankly middle class 
people do not have. If you want to start at the bottom, America 
is the place to succeed.
    I want to come back and agree with largely what you guys 
have said. My district has more manufacturing jobs in it than 
anywhere else in the country, and probably the biggest 
challenge my employers face is finding people to work. There 
are so many jobs out there which can't be filled.
    My first question is for Mr. Sullivan, Dr. Sullivan. I 
recently had some tradesmen in my office, and they talked about 
all the people going back to their apprentice training at 26, 
27, 28, who previously had a four year degree. I also talked to 
my local tech schools, you find people going back to tech 
school after they already have a four year degree.
    Do you find that is true in your area as well?
    Mr. Sullivan. Absolutely, it is true. In fact, we have 
begun programs that specifically target that population at 
SOWELA Technical Community College in the southwest part of the 
State of Louisiana in response to a demand or need for more 
workforce from Sasol, the large partner that located there.
    We were able to go out and find those people who had 
completed a Baccalaureate degree, help them finish a process 
technology program in a matter of 16 weeks, really able to 
answer an immediate market demand, and also help someone who 
had earned a Baccalaureate degree to earn a great living for 
their families.
    Mr. Grothman. Do you therefore feel we have too many people 
going to four year college in this country?
    Mr. Sullivan. I do not know that we can ever say there are 
too many people pursuing education, but I can tell you that we 
do have an alignment problem in this country. We certainly need 
to begin to think more in terms of what value proposition we 
are able to bring to our students, and also I think the great 
equalizer in this, as pointed out a few minutes ago, is having 
industry involved in those decisions about what programs we are 
funding.
    Mr. Grothman. The point is to me fairly obviously, if I 
have some poor kid who is taken in by a fancy brochure and 
graduates with an undergrad degree with $50,000 in debt, and 
then he is going to get his tech school degree or 
apprenticeship at age 26 or 27, it would seem to me obvious 
that he made a mistake both time-wise and cost-wise going to a 
four year, correct?
    Mr. Sullivan. Absolutely. Mom and dad would probably agree 
as well.
    Mr. Grothman. Right. If that is so, do you think it would 
be a good idea--one of the problems we have around here is we 
are very in debt, over $19 trillion in debt. You are going to 
ask this program be reauthorized. Do you think it would be a 
good idea to maybe take money away from say the Pell grants 
going through the traditional four years and find the money to 
continue your program there?
    Mr. Sullivan. Certainly. I certainly believe there are 
better ways to spend the Pell dollar, and that is certainly a 
discussion we look forward to engaging in around the Higher 
Education Act discussion at the appropriate time.
    As it relates to the Perkins' reauthorization, I do think 
there are opportunities here to extend that alignment question, 
which I think ultimately will drive some of the changes that 
you are describing.
    Mr. Grothman. Another question. You mentioned the wonderful 
things that are going on in Louisiana with your program. One of 
the frustrations I have here is too many of my colleagues think 
because something that is a good idea is a Federal problem. 
Okay? Obviously, we have a Federal program here.
    You say you are doing a good job in Louisiana, but you also 
mentioned several changes you want to have towards our program.
    It would seem to me easier to get those changes through the 
Louisiana legislature than asking Congress to do it. Don't you 
feel we may be better insofar as we have to put more money in 
these sorts of programs that it came from the State rather than 
the Federal Government?
    Mr. Sullivan. Certainly there are those programs in the 
State of Louisiana, and I am sure in other States, where we are 
funding current technical education. We have something referred 
to as the ``Rapid Response Fund'' in Louisiana, the ``Wise 
Fund'', and a number of others, where we are targeting those 
resources at programs exactly like Perkins.
    Instead of an either/or, I think it is most appropriately a 
balanced approach, State investment, as well as Federal 
investment.
    Mr. Grothman. As you mentioned, with the Perkins' grants 
come certain strings. Okay? So you have to send the money to us 
from Louisiana, then send it back to Louisiana with strings and 
paperwork involved. Wouldn't it be preferable insofar as you 
want more money just to get it straight from the State of 
Louisiana than asking the Federal Government to give you the 
money?
    Mr. Sullivan. Perhaps it would. I think the most important 
part is to remain focused on the fact that we need investments 
in career and technical education programs because the long-
term impact, as you pointed out, as we were talking about 
people in poverty, is to invest in those folks to give them the 
opportunity to pull themselves out of poverty.
    Mr. Grothman. Thank you.
    Chairman Kline. The gentleman's time has expired. Mr. 
Polis, you are recognized.
    Mr. Polis. Thank you. My first question is for Mr. Bates. 
In my district, St Vrain Valley School District is opening a 
pathways and technology early college or PTECH school. PTECH 
allows students to earn their high school diploma and an 
associate's degree in a STEM field in six years. And PTECH for 
instance is a partnership between the school district, the St 
Vrain Community College, and IBM.
    Can you talk more about the role of employers like IBM or 
Toyota in Perkins, and how schools like PTECH can be developed 
to give students STEM skills that can be applied at multiple 
companies meeting workforce needs?
    Mr. Bates. Yes, thank you, Congressman. I think industry 
can be involved first and foremost by educating educators what 
the technology is out there, what technology is necessary for 
the future workforce. So that's one area that we can provide. 
We can let educators understand the type of technology and the 
type of education that is important for the future.
    The other way I think industry can be involved in, is 
helping to fund and provide equipment for that technology. 
Toyota has throughout the country donated not only 
manufacturing equipment but we have also donated automobiles to 
various technical schools so that students can have the state-
of-the-art equipment to be able to work on.
    I also know there have been other local manufacturers in my 
community who have donated welding equipment for the students 
to work on.
    Employers have to be involved in helping to ensure that the 
technology that is being taught is state-of-the-art and it is 
current, helping develop the curriculum, and also be able to 
provide funding to help purchase equipment and other things for 
them to be successful in their work.
    Mr. Polis. Dr. Sullivan, in my district in Colorado, high 
schools and community colleges have built relationships 
together that give students a chance to take advantage of high 
quality CTE programs. Can you talk about the importance of dual 
and concurrent enrollment programs in this partnership and at 
the Federal level what we can do to encourage these kinds of 
programs?
    Mr. Sullivan. Absolutely. Certainly, Colorado has been a 
leader in that effort, and we appreciate the example you have 
established.
    As I mentioned before, this is that season of commencement, 
and over this past week, we have had numerous examples of 
students who not only earned a high school diploma but also 
earned a credential in industrial maintenance technology and is 
looking at a career working right there in the Chalmette area 
of Louisiana working for any number of different companies. 
Phillips 66, Dominos Sugar, Community Coffee, a whole range of 
organizations there that are looking for those specific skill 
sets.
    The career and technical education opportunities, you have 
to remember many of these students, as much as we may want to 
believe they are listening to guidance counselors, are 
listening to their colleagues and fellow students more so than 
they are guidance counselors.
    The word of mouth and the example that these students set 
for one another is really an important component for us to 
think about as we establish policy.
    Mr. Polis. Can you briefly address how greater economies of 
scale and better services can be offered at a better cost to 
school districts through partnering with community colleges 
versus trying to run all these programs themselves?
    Mr. Sullivan. The school accountability movement in this 
Nation has probably made career and technical education more 
difficult in this environment. As we begin to think about how 
we scale, community colleges present unique opportunities, I 
believe, because they are the institutions that are aware of 
and involved in local labor market demands, but in addition to 
that, they are also the entities that are the connectedness 
between the secondary arena as well as the universities, and 
present unique opportunities, I think, to do exactly what you 
are describing in terms of scale.
    Mr. Polis. Thank you. For any of you, what are some of the 
more innovative CTE programs across the country that you have 
seen that you want to share with our committee?
    Mr. Bates. I think our program that we have across the 
country has been recognized by Jennifer McNelly of the 
Manufacturing Institute as being the premiere associate's 
degree in industrial maintenance across the country.
    I think our program is a great example. The great thing 
about our program is it not just benefits Toyota, but it 
benefits all manufacturers who want to be a part of it.
    Mr. Polis. Has anybody seen any effective CTE programs for 
like call centers or customer service, anything like that? No? 
That would be another area that I think would be a good 
opportunity for kids to be able to graduate high school with a 
marketable degree. There is a lot of growth in that sector, 
including one of the largest call center companies based in my 
district in Colorado.
    I am happy to yield back.
    Chairman Kline. The gentleman yields back. Mr. Langevin, 
you are recognized for 5 minutes. It is good to see you here, 
Jim.
    Mr. Langevin. Thank you, Mr. Chairman. I want to thank you 
and Ranking Member Scott and Acting Ranking Member Fudge for 
the invitation to join you and the ability to participate in 
this hearing on an issue that is really near and dear to my 
heart when we talk about reauthorizing Perkins.
    I also want to thank my Republican co-chairman of the CTE 
Caucus, a distinguished member of this committee, Congressman 
GT Thompson. He and I have been great partners in this effort, 
and he has been a steadfast partner again and a strong advocate 
for strengthening our workforce training programs.
    Thank you, witnesses, for very impressive testimony. I have 
enjoyed sitting in on this hearing.
    If I could start, Mr. Bates, one of the biggest challenges 
we have seen in my home State of Rhode Island is getting 
companies to offer apprenticeships that also allow students to 
pursue their studies at a community college.
    What changes did you need to make that allowed you to on 
board these students without a disruption to your production 
process?
    Mr. Bates. Well, one thing we had to do, Congressman, in 
our program is we had to provide them with the work experience 
that would also allow them to be able to go to school. At our 
facility, we rotate our schedules, which means every two weeks 
our team members are changing their schedules. That would not 
be feasible for our coop students.
    We had to work with them and be able to make sure they were 
able to have the time necessary to go two days a week to their 
schooling and be able to have the training the other three days 
on day shift, and be able to get the applied training they 
needed.
    We had to work with our existing maintenance workforce to 
be able to make sure they always had a mentor, no matter who 
was on shift with them, they always had a mentor that they 
could work with, to teach them, to make sure that they were 
being safe, and they were able to provide guidance to them.
    It does require some requirements for the manufacturer to 
change how they are able to do the work for those students, but 
if you think about it, this is an investment in their future 
but it is also an investment in our future.
    I need those students in three to five years to be able to 
come into the workforce and to provide a valuable skill to my 
plant. We have to recognize that, so we need to make sure that 
we are providing that opportunity for them to get the skills 
and the education necessary so that when they graduate, they 
are able to then come into the workplace and provide the skill 
that I am looking for.
    Mr. Langevin. Thank you. Dr. Sullivan, I have a question 
for you about coordination between educators and employers. I 
know we have kind of touched on this a little bit throughout 
the hearing in different ways. At a CTE Caucus field hearing in 
Rhode Island, we were told that colleges need to move at the 
speed of business if they want to authorize successful 
apprenticeship programs.
    What enables a college to effectively tailor the classes to 
in demand skills?
    Mr. Sullivan. Thank you for the question. I think it really 
begins very simply on the front-end with listening, by simply 
asking industry the question what is it that you are looking 
for and how should we deliver it, and listening when industry 
responds.
    The traditional academic calendar probably is out the 
window as we just heard Mr. Bates describe a second ago, 
because we have to begin to think about how we deliver 
instruction on time and in the right place and of the right 
quality and type to ensure that those employees or those 
apprenticeship students as they complete are actually the 
product that industry is looking for.
    Listening would be first and foremost. Secondly, having the 
willingness to be flexible and to make adjustments to what we 
think of as being traditional in our institutions, and instead 
remember that we are in the business of trying to help our 
students become employed, and because that is our business, we 
have to be flexible, be it with schedule, be it with content, 
but at the same time, knowing that industry is there because 
there is an investment that they are making in our 
institutions. We have to be willing to reciprocate.
    Mr. Langevin. It is a partnership, I agree. Thank you. For 
Mr. Tse, in your testimony, you note that it was a family 
member who suggested you pursue a skill trade. What could the 
school district have done to encourage more students to think 
about a similar path? Did you encounter any barriers preventing 
you from pursuing a skill trade as a viable option for you and 
your peers? I know we touched on that just a minute ago in a 
way. Anything else you want to expand upon in that respect?
    Mr. Tse. I feel that in general--thankfully, my uncle who 
happened to be a roofer, kind of persuaded me to go and start 
looking into CTE programs that was available to me. I feel that 
schools could do a better job at kind of advertising--maybe not 
advertising--promoting that these programs exist instead of me 
having to go outreach to them in finding this program through 
my guidance counselor.
    I think there should have been something out there, kind of 
like a Career Day almost, for teachers and counselors to come 
through with their students, and show them that hey, by the 
way, these programs are available to you. That could easily 
spark some interest in younger kids.
    Chairman Kline. The gentleman's time has expired.
    Mr. Langevin. Thank you, Mr. Chairman.
    Chairman Kline. It looks like all members have had a chance 
to engage in the discussion. Let me yield to Ms. Fudge for any 
closing remarks she might have.
    Ms. Fudge. Thank you very much, and thank all of you for 
being here today. It has been a great hearing. I think both 
sides of the aisle were pleased with the testimony that we have 
received, and I thank you all.
    Mr. Chairman, I would request that we enter into the record 
a letter from the National Education Association in support of 
reauthorization, as well as recommendations for our 
consideration.
    Chairman Kline. Without objection.
    [The information follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
       
    Ms. Fudge. Thank you. Just in closing, I would say that 
this is a very timely hearing. I am certainly hopeful that 
having heard the testimony today as well as the comments and 
questions from my colleagues that we can move forward to get 
this reauthorization done this year.
    I don't see that there is any impediment to doing it, and I 
am certainly hopeful that we will make it happen this year, and 
I thank you, and I yield back, Mr. Chairman.
    Chairman Kline. I thank the gentlelady. I want to thank the 
witnesses, really compelling stories, great witnesses.
    I was talking to Ms. Fudge a little bit here about how many 
of my colleagues and how many of you mentioned ``welding.'' I 
flashed back to 8th grade shop when I ostensibly learned 
welding, and I am thinking gosh, if I still had that skill, 
then I could probably have a real job. It is amazing. If you 
can weld, you can work anywhere.
    Mr. Langevin mentioned the Caucus where someone said the 
programs and schools have to work at the speed of business. I 
think that is something that we are going to be very mindful of 
as we go forward here to remove any impediments that might be 
there so that the instruction can move at that speed.
    The need is out there, and you are still teaching, I don't 
know, something that is no longer of any use. I almost said 
``welding.'' I just made the point that is of great use today.
    And so, we are excited about the prospect of reauthorizing 
this. I think this is one of those areas where we should have 
pretty good bipartisan agreement.
    Your testimony today and your involvement in the discussion 
is very helpful. Again, I thank you very much, and there being 
no further business, the committee stands adjourned.
    [Questions submitted for the record and their responses 
follow:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    [Whereupon, at 12:17 p.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
